U. S. Department of Agriculture

 Office of Inspector General

       Audit Report



        Food and Nutrition Service
 Child and Adult Care Food Program
 National Report on Program Abuses

    PRESIDENTIAL INITIATIVE:
    OPERATION KIDDIE CARE




                  Audit Report No.
                  27601-7-SF
                  August 1999
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL
                                    Washington D.C. 20250



DATE:        August 23, 1999

REPLY TO
ATTN OF:     27601-7-SF

SUBJECT:     Child and Adult Care Food Program (CACFP)
             Operation Kiddie Care

TO:       Samuel Chambers, Jr.
          Administrator
          Food and Nutrition Service


This report presents the results of our nationwide review of the CACFP (Operation
Kiddie Care) through February 1999. Your written response to the official draft report is
included as exhibit E. Excerpts from your response and our position are set forth at the
end of each Finding section of the report.

The CACFP is a valuable program for children in child care, but, as shown by the
results of Operation Kiddie Care, the CACFP is highly vulnerable to abuse because
the primary controls for combatting fraud and abuse have been vested in the CACFP
sponsors. We found that some sponsors were using program funds for their personal
enrichment and thereby reducing the funds available to provide an effective food
service program to children in day care.

While we recognize and applaud actions taken by some of the individual State
agencies to address the findings in our audits, we believe that integrity throughout the
program cannot be maintained without aggressive, clear, and consistent guidance and
oversight from FNS.

We have accepted your management decision for Recommendation Nos. 3a, 3b, 3c,
and 4b. In order to reach management decision on the remaining recommendations,
please provide us with the additional information as outlined in the OIG Position
sections of the report. We recognize that your agency plans to address many of the
problems in the CACFP with new strengthened regulations which are currently in the
draft proposal stage. We need specific details of how the published proposed rule will
address the recommendations.
Samuel Chambers, Jr.                                                                     2


Also, please reconsider your response to the Recommendations Nos. 1a (disreputable
sponsors), 2k (bonding of key sponsor officials), and 3d (administrative costs for
sponsors of child care centers). In our opinion, the corrective actions on these three
recommendations are critical and need to be implemented as soon as possible to
restore integrity to the CACFP. We believe that the changes to the CACFP
recommended in this report are urgently needed to prevent even one more sponsor
from abusing this important feeding program.

Since the cutoff date (February 19, 1999) for data summarized in this report, we have
continued to find more problem sponsors and program abuse. These findings will be
presented in future reports.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60
days describing the corrective action taken or planned and the timeframes for
implementation of these recommendations. Please note that the regulation requires a
management decision to be reached on all findings and recommendations within 6
months from report issuance.

The Office of the Chief Financial Officer (OCFO), U.S. Department of Agriculture, has
responsibility for monitoring and tracking final action for the findings and
recommendations. Follow your internal agency procedures in forwarding final action
correspondence to the OCFO.

We appreciate the cooperation and assistance provided by the staff from your regional
offices and from the State agency officials received during this audit.




ROGER C. VIADERO
Inspector General
        EXECUTIVE SUMMARY
    FOOD AND NUTRITION SERVICE
CHILD AND ADULT CARE FOOD PROGRAM
NATIONAL REPORT ON PROGRAM ABUSE
     AUDIT REPORT NO. 27601-7-SF

         PRESIDENTIAL INITIATIVE:
         OPERATION KIDDIE CARE


                                 This report presents our analysis of
PURPOSE                          audits and investigations completed as
                                 of February 19, 1999, as part of the
                                 Presidential initiative known as
 Operation Kiddie Care. The purpose of this report is to assess the
 controls in the Child and Adult Care Food Program (CACFP) and their
 effectiveness in detecting fraud and abuse by individual program
 sponsors.

 Operation Kiddie Care has been underway for about 2½ years. Early
 audits and investigations provided warning signs that some sponsors
 participating in the CACFP were not acting in the best interests of the
 program or of the children they claimed to be feeding. The Inspector
 General then proposed that the Department undertake an initiative to
 determine the extent of fraud in the child care program and eliminate
 it. The Secretary and the Under Secretary for Food, Nutrition and
 Consumer Services joined the Inspector General in recommending
 this initiative to the President.

 This report presents the status of our work in the CACFP as of
 February 19, 1999. The report also discusses other major efforts
 made by a Food and Nutrition Service (FNS) task force as well as
 actions taken by FNS on recommendations from prior Office of
 Inspector General (OIG) audits made to correct problems in the
 CACFP.

 Details of 11 OIG investigations of CACFP sponsors have not been
 included in this report because this information cannot be made


                        -i-
 public at this time. Additionally, audits which were initiated after
 February 19, 1999, are not included in this report.

 Our audit and investigative work in the CACFP continues.

                                      Under its current design, the
                                      CACFP has attracted
RESULTS IN BRIEF                      opportunistic    sponsors who
                                      have taken advantage of the
                                      program's delivery system, a
                                      system that places the primary
 controls over the CACFP in the hands of the sponsors. Since this
 program can provide significant monetary gains, many sponsor
 organizations were created solely for the purpose of acquiring access
 to the program. While these sponsors have operated as nonprofit
 organizations, the incentives to enrich themselves at the expense of
 the program outweighed the goal of making sure that the CACFP is
 administered as intended; to feed children and adults in day care.
 This renders the program highly vulnerable to abuse.

 As of February 19, 1999, we had completed or had in process
 reviews in 23 States covering 49 sponsors (includes 1 day care
 center), 2 employees, and 4 providers. These reviews consisted of
 24 audits, 18 investigations, and 13 joint audit and investigations.
 The following data summarizes the results of our reviews.

 C   Thirty-seven of the 49 sponsors meet the criteria for being
     "seriously deficient" in program administration.          Serious
     deficiencies include failure to maintain adequate records,
     submission of false information to the State agency, a history of
     administrative or financial mismanagement, and failure to monitor
     and train providers. These 37 sponsors, who have been receiving
     approximately $76.3 million annually in food and administrative
     funds, are subject to termination from the program if they fail to
     correct the deficiencies.

 C   Because 16 of these 37 sponsors were unable to correct their
     serious deficiencies, they have been terminated from the CACFP.
     These 16 sponsors were receiving approximately $34.6 million
     annually in food and administrative funds.

 C   Thirty-one investigations for program fraud have been initiated.



                       - ii -
                          C   Forty-four individuals have been indicted or named in criminal
                              information documents1 for defrauding the CACFP; 28 of these
                              individuals have pled guilty or have been convicted; and 26
                              individuals have been sentenced for illegal activities. (One
                              person is serving a 3-year term and another person was
                              sentenced to serve a 9-year term.)

                          C   Over $18,000 in fines, $4.2 million in restitutions, and $1.1 million
                              in forfeitures have been ordered by the courts.

                          To put the problem in perspective, the 37 seriously deficient sponsors
                          administered about 14 percent of the total program expenditures in
                          the 23 States where they operated. The 16 terminated sponsors
                          administered about 12 percent of the total program expenditures in
                          the 10 States where they operated. We excluded the funding for
                          independent child care centers from these calculations because these
                          centers were not included in Operation Kiddie Care.

                          We also concluded that FNS, the Federal agency responsible for
                          administering the CACFP, needs to take more aggressive action to
                          prevent the types of abuses detailed in this report. We found
                          program abuse continuing, even though FNS had information
                          showing significant changes were needed to ensure integrity in the
                          program.

                          Our reviews show that abuse is widespread in the CACFP. Among
                          the incentives that we believe contributed to abuse of the program
                          were the following:

                          -   The program creates pools of money that invite abuse. Some
                              States allow sponsors to retain food money from child care centers
                              (up to 30 percent of reimbursements) to pay for administrative
                              costs. By contrast, costs for administering day care homes are
                              paid directly to the sponsor and are separate from the homes' food
                              reimbursements. We found that by retaining their centers' food
                              money, sponsors were able to create large pools of funds that
                              remained at their disposal and in many cases directly contributed
                              to the personal enrichment of their officers. We believe that FNS
                              needs to consult with the Office of the General Counsel (OGC)
                              regarding the legality of this practice.



1
    A criminal information is filed with the court, charging an individual with a crime.

                                                       - iii -
-   The program encourages sponsors to ignore provider deficiencies.
    Sponsors' administrative cost reimbursements are based on the
    number of providers they administer, and providers'
    reimbursements are based on the number of meals they serve.
    Strict enforcement of meal claims can reduce a provider's potential
    income and cause the provider to seek a less conscientious
    sponsor. Consequently, sponsors have a financial incentive to
    ignore provider deficiencies. Our unannounced visits to over
    3,200 providers and centers nationwide have shown that,
    generally, providers and centers we visited were claiming more
    meals than they were serving.

-   Sponsor officials may increase their salaries by reducing funds for
    day care monitoring activities. Sponsors employ monitors to travel
    to homes and centers to help ensure that meals are properly
    constituted and that meal claims are accurate. However, sponsors
    are under no obligation to employ a number of monitors
    commensurate with the number of homes they sponsor. We found
    sponsors hiring fewer monitors so that more administrative funding
    could be spent on officers' salaries and benefits.

Over the last four years, reports and recommendations made by OIG
and by FNS' own task force have made FNS aware that significant
regulatory changes were needed to ensure integrity in the CACFP.
Since 1995, FNS has been drafting proposed changes to the CACFP
regulations (7 CFR Part 226) to improve management and integrity
in the CACFP. FNS estimated in its 1998 Federal Managers'
Financial Integrity Act (FMFIA) that the implementation of these
regulations will be delayed until the end of fiscal year 2000.

Although FNS has been conducting periodic training of States and
sponsors and has issued a CACFP State and Sponsor Management
Improvement Guide, these actions have not been an adequate
safeguard against program mismanagement. We believe that if FNS
had been more diligent in implementing the needed regulatory
changes, it could have prevented or detected much of the fraudulent
activity we found during our audits and investigations.

Because the CACFP's delivery system depends on the sponsors'
oversight, and because many sponsors have demonstrated a lack of
integrity in that oversight, FNS needs to determine if the current
system should be retained. We are recommending that FNS
strengthen integrity in the program through two concurrent actions.


                       - iv -
To provide a short-term corrective, FNS should immediately
implement recommendations previously set forth by OIG and the FNS
task force, as well as the other recommendations we make in this
report to establish controls over the present delivery system.
Simultaneously, to establish a long-term solution, FNS should
determine if an alternative delivery system would better serve the
needs of the program.

We also noted three other areas where improvements in the CACFP
are needed.

-   Sponsors do not have clear directions for determining what
    administrative costs could be paid from CACFP funds. Many
    sponsors and State agencies honestly did not understand the
    program. Either the sponsors did not know which rules to follow,
    or the States did not know which rules to enforce. FNS needs to
    develop a sponsor handbook on the administrative management
    of the CACFP.

-   FNS needs to establish better coordination between two of its
    programs, the Food Stamp Program (FSP) and the CACFP.
    Providers can be eligible for larger payments from the CACFP if
    they are on the Food Stamp Program. However, we found that
    some of these providers were not disclosing their CACFP income
    to Food Stamp Program eligibility workers, thereby receiving
    excessive benefits from each of these FNS programs. In a cursory
    review in two States, we found 14 cases of potential FSP fraud.

-   FNS needs to provide clearer direction about how State agencies
    should recover CACFP funds from sponsors who have made
    inaccurate, ineligible, or fraudulent claims. The methods used by
    some State agencies hurt the providers, centers, and children who
    are not responsible for the overpayments. These State agencies
    collect overpayments due from the sponsors by offsetting future
    food reimbursements to the centers and providers serving meals
    to eligible children. In effect, the children are shortchanged twice,
    while the perpetrators of the overclaims retain their ill-gotten
    gains.

We also believe that FNS should take advantage of the public's
presence at provider sites. Parents of the children in day care seem
to be unaware that their children are participating in the CACFP and
are due the benefits of the program. FNS needs to raise the visibility


                       -v-
         of the CACFP to encourage parental involvement by posting some
         type of program notification at the providers' home or child care
         centers.

         Our work on Operation Kiddie Care is continuing. Since February 19,
         1999, the cut-off date for data used in this report, we have continued
         to find sponsors abusing and possibly defrauding the CACFP. We
         will be reporting on additional cases at a later date.

         We have also issued three audit reports on the administration of the
         CACFP by the California Department of Education. These reports,
         27601-6-SF, 27601-8-SF, and 27601-9-SF, are available on the OIG
         web page (www.usda.gov/oig/).

                                          We are recommending that FNS
                                          study alternative methods of
KEY   RECOMMENDATIONS
                                          delivering a meal program to
                                          children and adults, specifically one
        that addresses the problems we found in the private, nonprofit
        organizations included in our reviews. We are also recommending
        that while the study is underway and the program continues in its
        current form, FNS strengthen controls by implementing as soon as
        possible the recommendations put forth in earlier OIG reports and in
        the results of FNS' task force. These recommendations respond to
        the problems we found during Operation Kiddie Care and include the
        development of standards for approving new sponsors, renewing
        continuing sponsors, and terminating deficient sponsors. We are
        also restating our recommendation that FNS provide a different
        method of reimbursing administrative costs so the reimbursement is
        not based on the number of the sponsor's providers, a method that
        creates a disincentive to effective compliance.

         Other recommendations are aimed at strengthening current controls:
         we are recommending that FNS

         -   develop a handbook that incorporates all Federal regulations
             controlling sponsorship of the program and that identifies the costs
             that are allowable,

         -   clarify what constitutes adequate sponsor staffing and adequate
             provider training,




                                - vi -
  -   raise the visibility of the CACFP by ensuring that parents know
      their day care providers are participating in the program, and

  -   obtain an opinion from The Office of the General Counsel on the
      legality of the sponsor practice of retaining a portion of the food
      money earned by centers as the sponsor's compensation for
      administering the program. If this practice is determined to be
      legal, FNS should establish a realistic rate that sponsors can
      retain for administering the program to child care centers and tell
      centers what this amount is.

  We are also recommending that FNS issue guidance to States so that
  the recovery of ineligible program funds from sponsors comes from
  the sponsors' funds and not monies for children's meals.

                                   In its response to the official draft,
                                   FNS states that it is committed to
AGENCY POSITION                    improving the operations of the
                                   CACFP and will continue to
                                   aggressively pursue all means to
 ensure sound program management and prevent fraud. FNS'
 response is reproduced as exhibit E to this report.

  The agency's responses to the individual recommendations are
  included after each recommendation in the report, along with our
  comments. We do not believe that the corrective actions proposed
  to date by FNS go far enough to correct the serious problems in the
  CACFP, and in our comments we put forward the specific actions we
  believe are needed.




                        - vii -
TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION

     BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

     SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

     METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4



FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . 5


I.       PROGRAM CHANGES ARE NEEDED TO ENSURE
         INTEGRITY IN THE CACFP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

         Finding No. 1 -               Fraud and Abuse Reveal the Need
                                       for Program Redesign . . . . . . . . . . . . . . . . . . . . . . . . . 6

         Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

         Finding No. 2 -               FNS Has Not Yet Corrected Existing Problems:
                                       Immediate Controls Are Needed During Program
                                       Redesign . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48

         Finding No. 3 -               Excessive Allowance For Administrative Costs
                                       of Day Care Centers Is an Incentive for Abuse . . . . . 55

         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58


                                                         - viii -
II.   SPONSORS AND STATES NEED FNS WRITTEN GUIDANCE FOR
      ADMINISTRATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

      Finding No. 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

III. CACFP PROVIDERS DO NOT REPORT ALL CHILD CARE INCOME
       WHEN APPLYING FOR FOOD STAMPS AND CACFP ASSISTANCE . . 72

      Finding No. 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72

      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75

IV. SOME METHODS OF RECOVERING OVERPAYMENTS COULD
      RESULT IN UNFAIR REDUCTIONS IN REIMBURSEMENTS . . . . . . . . . 77

      Finding No. 6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77

      Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

V.    FNS SHOULD RAISE THE VISIBILITY OF THE CACFP . . . . . . . . . . . . . 81

      Finding No. 7 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81

      Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 82



EXHIBITS

      A-       ANNUAL FUNDING FOR TERMINATED SPONSORS . . . . . . . . . . 83

      B-       SUMMARY OF THE STATUS OF INVESTIGATIONS IN
               PROCESS AS OF FEBRUARY 19, 1999 . . . . . . . . . . . . . . . . . . . . 84

      C-       SUMMARY OF AUDITS AND INVESTIGATIONS . . . . . . . . . . . . . . 85

      D-       RESULTS OF PROVIDER VISITS . . . . . . . . . . . . . . . . . . . . . . . . . 86




                                                     - ix -
   E-   FOOD AND NUTRITION SERVICE'S WRITTEN RESPONSE
        TO THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87


PHOTOGRAPHS

   1-   CHILDREN IN DAY CARE ENJOYING A MEAL . . . . . . . . . . . . . . . . 1

   2-   5,000 SQUARE-FOOT HOME FORFEITED BY PAAM, A
        CALIFORNIA CACFP SPONSOR . . . . . . . . . . . . . . . . . . . . . . . . . . 12

   3-   ANOTHER HOME (SOLD FOR $415,000) FORFEITED BY
        PAAM, A CALIFORNIA CACFP SPONSOR . . . . . . . . . . . . . . . . . . 13

   4-   BUILDING OWNED BY CBIA'S EXECUTIVE DIRECTOR AND
        HER HUSBAND SHOWING BAIL BOND AND OTHER SERVICES
        AVAILABLE ON FIRST FLOOR. CACFP OFFICES WERE
        LOCATED ON THE SECOND FLOOR . . . . . . . . . . . . . . . . . . . . . . 15

   5-   VEHICLE LEASED BY CHILDREN'S SPECTRUM WITH
        CACFP FUNDS. PARKED AT WISCONSIN LOCATION
        WHERE CHILDREN'S SPECTRUM'S EXECUTIVE DIRECTOR
        HAD ANOTHER FULL-TIME JOB . . . . . . . . . . . . . . . . . . . . . . . . . . 17

   6-   VACANT LOT LISTED AS ADDRESS FOR ACTIVE DAY CARE
        PROVIDER SPONSORED BY NEW JERUSALEM CHURCH OF
        GOD IN CHRIST IN OHIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

   7-   UNSAFE CONDITIONS AT A UTAH APARTMENT COMPLEX
        WHERE SEVERAL DAY CARE PROVIDERS OPERATED . . . . . . 32

   8-   UNSAFE CONDITIONS OBSERVED AT SMALL TRAILER USED
        FOR DAY CARE IN UTAH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32




                                        -x-
                            INTRODUCTION


                                        The Child and Adult Care Food
         BACKGROUND                     Program (CACFP) is designed to
                                        ensure that children and senior citizens
                                        in day care facilities receive nutritious
           meals (see photo no. 1). Program funding nationwide for fiscal year
           1996 was $1.58 billion. For fiscal year 1997, the appropriation was
           increased by about 10 percent to $1.74 billion.

             The program is administered at the Federal level by the Food and
             Nutrition Service (FNS) and at the State level by a State agency.
             State agencies administer their programs through public or nonprofit
             sponsoring organizations which act as a liaison between the State
             agency and participating day care facilities. Sponsors are ultimately
             responsible for program operations in those facilities.




             PHOTO NO. 1 - CHILDREN IN DAY CARE ENJOYING A MEAL.




USDA/OIG-A/27601-7-SF                                                     Page 1
             Facilities eligible to participate include day care homes (homes) or
             child care centers (centers). A home is a day care facility located in
             a private residence. The operator of the home is referred to as the
             "provider." A child care center is operated by a public or private
             nonprofit organization, is licensed to provide child care, and primarily
             serves pre-school children. Homes and centers must be licensed by
             a State or local licensing authority.

             Under Title 7 Code of Federal Regulations (CFR) 226.4(h) funding is
             authorized to States specifically for the purpose of conducting audits
             and administrative reviews of institutions. These funds are
             designated to pay the cost of required organizationwide or program-
             specific audits of institutions. Title 7 CFR 226.6(l) also specifies that
             State agencies perform administrative reviews of sponsors on a
             periodic basis.

             Operation Kiddie Care is a national initiative to identify, investigate,
             and prosecute individuals who are abusing and defrauding one of the
             most important feeding programs in USDA, the Child and Adult Care
             Food Program. OIG uses a "sweep" audit approach to determine if
             CACFP sponsors are in compliance with CACFP regulations. A
             "sweep" is an audit approach used to gain an accurate picture of an
             enterprise's operation in a brief, unguarded moment. During a
             "sweep", auditors and investigators conduct simultaneous,
             unannounced visits to selected audit sites, so that a realistic picture
             of a site's operation can be determined.

                                         Our audit objectives were to (1)
          OBJECTIVES                     conduct an intensive review of
                                         sponsors whom we have identified as
                                         potential problem sponsors, (2) identify
            the types and magnitudes of the abuses in which the identified
            sponsors were engaging, (3) provide data to FNS and the State
            agencies to effect claims and/or other sanctions against sponsors
            who are abusing the program, (4) refer cases of potential fraud to
            OIG-Investigations, and (5) identify control weaknesses in the
            program that had rendered it vulnerable to fraud and other abuses.




USDA/OIG-A/27601-7-SF                                                         Page 2
                                            The scope of our review for this report
              SCOPE                         was the sponsors participating in the
                                            CACFP during the period January 1996
                                            to February 1999.        Some of the
             sponsors also selected for review had terminated their participation
             in the CACFP during this period. At the time of our review, there were
             approximately 1,200 sponsors of day care providers and day care
             centers participating in the program. As of February 19, 1999, we
             had in process or had completed a total of 37 audits and 31
             investigations of child care sponsors, employees and providers (see
             figure 2).    Thirteen of these cases were joint audits and
             investigations.

             The sponsors were selected for an audit and, if necessary, an
             investigation based on a problem-sponsor profile we developed and
             referrals from FNS, State agencies, or other sources (whistleblower
             complaints, audit leads, etc.).

             Audit work was performed from January 1996 through August 1998
             at the FNS Western Regional Office in San Francisco, California; the
             FNS Southwest Regional Office in Dallas, Texas; the FNS Mountain
             Plain Regional Office in Denver, Colorado; the FNS Midwest
             Regional Office in Chicago, Illinois; the FNS Southeast Regional
             Office in Atlanta, Georgia; the FNS Mid-Atlantic Regional Office in
             Robbinsville, New Jersey, the FNS Northeast Regional Office in
             Boston, Massachusetts; and the State agencies in each OIG region
             (see figure 1). We also conducted work at the FNS National Office.

             Fieldwork included audits and investigations of 55 child care
             sponsors, day care centers, employees, and providers located in 23
             States. We also attempted to visit over 3,200 day care homes and
             centers (see exhibit D). We actually visited 2,805 homes and
             centers; 483 could not be visited because they were no longer in the
             program or no one was on the premises during the stated food
             service hours.

             We conducted the audit in accordance with generally accepted
             government auditing standards.




USDA/OIG-A/27601-7-SF                                                      Page 3
                                           To accomplish our objectives and
         METHODOLOGY                       support our findings, we performed the
                                           following steps:


             C   We interviewed FNS Regional Office staff to identify problem
                 sponsors.

             C   We interviewed FNS Regional Office staff to identify regional
                 policies or procedures relating to the program.

             C   We interviewed State agency staff to determine the universe of
                 sponsor data.

             C   We reviewed State agency files to obtain information about the
                 sponsors' operations and funding.

             C   We interviewed the sponsors' staffs to obtain an understanding of
                 their operating procedures.

             C   We reviewed each sponsor's records supporting its claims for
                 reimbursement, its receipt and disbursement of program funds,
                 and its overall administration of the program. Records we
                 reviewed included receipts, cancelled checks, bank statements,
                 provider claims (meal counts), provider menus, enrollment forms,
                 monitoring checklists, and training documents.

             C   We interviewed the certified public accountants who audited the
                 sponsors' program claims (when applicable).

             C   We judgmentally selected homes or centers operating under the
                 sponsors and completed reviews at the provider sites. Criteria for
                 the judgmental sample were as follows: (1) providers with a high
                 reimbursement, (2) providers with high enrollment, and (3)
                 providers who consistently claim the same number of children for
                 meals.

             C   At each of the homes or centers, we interviewed providers or
                 other persons present and reviewed their records.

             C   We also conducted interviews and record reviews at the FNS
                 National Office.



USDA/OIG-A/27601-7-SF                                                      Page 4
         FINDINGS AND RECOMMENDATIONS


 I.   PROGRAM CHANGES ARE NEEDED TO ENSURE INTEGRITY
      IN THE CACFP


             The delivery structure of the CACFP entrusts sponsors with program
             oversight, but we found that many sponsors, particularly private
             nonprofit organizations, lacked the integrity needed to protect the
             CACFP from abuse. While FNS had information showing problems
             existed, it had not acted aggressively to impose stronger controls. In
             1995, OIG audits found day care homes claiming meals for
             nonexistent children; more recently, under Operation Kiddie Care,
             investigations have found sponsors forging documents to increase
             their administrative reimbursements.

             As a result of Operation Kiddie Care, 16 sponsors nationwide have
             been terminated from the program because of serious deficiencies,
             and 28 individuals have pled guilty or have been convicted of fraud.
             Investigations disclosed that sponsors had created fictitious
             providers, inflated meal counts, and diverted program funds. The
             results of investigations have been significant. For example, the
             indictment for one sponsor included 117 counts of fraud. Two other
             audits and investigations resulted in indictments, convictions and
             sentencing of sponsor officials; one is serving a 3-year prison term
             and another was sentenced to serve a 9-year term.

             This will be the fourth report issued since 1995 that has documented
             significant problems in the CACFP. OIG will have issued three
             reports: a nationwide report of CACFP deficiencies in March 1995
             (audit no. 27600-6-At); the Operation Kiddie Care interim report
             issued to the Secretary in April 1998 (audit no. 27601-3-SF); and this
             current audit report (audit no. 27601-7-SF). The fourth report was
             from an internal FNS task force made up of FNS national and
             regional personnel and State agency personnel who made 33
             recommendations to change the CACFP in July 1995.




USDA/OIG-A/27601-7-SF                                                      Page 5
             These reports and recommendations made by OIG and by FNS' own
             task force have made FNS aware that significant regulatory changes
             were needed to ensure integrity in the CACFP. Since 1995, FNS has
             been drafting proposed changes to the CACFP regulations (7 CFR
             Part 226) to improve management and integrity in the CACFP. FNS
             estimated in its 1998 Federal Managers' Financial Integrity Act
             (FMFIA) that the implementation of these regulations will be delayed
             until the end of fiscal year 2000.

             While FNS has been conducting periodic training of States and
             sponsors and has issued a CACFP State and Sponsor Management
             Improvement Guide, we believe that if FNS had implemented the
             needed regulatory changes, the additional controls in the program
             could have prevented or detected much of the fraudulent activity we
             found during our audits and investigations.

             We concluded that FNS needs to ensure integrity through two
             concurrent actions: it should immediately implement
             recommendations previously set forth by OIG and the 1995 FNS task
             force (short-term corrective actions), and with these controls in place,
             it should determine if an alternative delivery system to the one now
             in effect (long-term corrective action) is necessary.

                                              We found CACFP sponsors
            FINDING NO. 1                     operating as nonprofit organizations,
                                              but enriching themselves at the
         FRAUD AND ABUSE                      expense of the children to whom they
          REVEAL THE NEED                     were supposed to provide meals.
       FOR PROGRAM REDESIGN
                                             Under the CACFP's design, FNS and
                                             the States depend upon sponsors to
                                             enroll providers in the program,
             monitor provider operations, determine the accuracy of provider
             claims, and distribute Federal reimbursements for meals served.
             FNS and the State must rely on the integrity of the sponsors to ensure
             that Federal funds are protected from abuse, yet because the
             sponsor's administrative fee is based on the number of homes
             enrolled and the number of meals served, and because there is little
             State oversight of sponsor activities, there are few incentives for
             sponsors to provide cautious oversight. We found that some
             sponsors, particularly private, nonprofit organizations, lacked the
             integrity needed to ensure the protection of Federal funds.



USDA/OIG-A/27601-7-SF                                                        Page 6
             To date, Operation Kiddie Care has found 37 sponsors who have met
             the FNS criteria of being "seriously deficient" in program
             administration and are subject to termination from the program if they
             fail to correct the deficiencies. These 37 sponsors have been
             receiving approximately $76.3 million annually in food and
             administrative funds.

             To put the magnitude of the problems we have found in perspective,
             the $76.3 million paid to these 37 seriously deficient sponsors, is
             about 5 percent of the average 1996 and 1997 program expenditures
             of $1.4 billion in all States receiving CACFP funding, and is about 8
             percent of the average 1996 and 1997 program expenditures of $919
             million in the 23 States where we conducted our audits and
             investigations.

             As stated, our audits and investigations have concentrated on day
             care providers and day care centers that are administered by a State
             agency through a sponsoring organization. About 41 percent of the
             total program expenditures ($605 million of $1.4 billion) however, is
             paid to independent child care centers that are administered directly
             by State agencies.

             If we exclude these centers from our percentages (because we have
             not been including them in Operation Kiddie Care), the seriously
             deficient sponsors we found represent about 14 percent of the total
             program expenditures in the 23 States where we conducted our
             audits and investigations.

             Thirty-one investigations of program fraud have been initiated, and 16
             of the 37 sponsors found to be seriously deficient have been
             terminated from the CACFP. The program expenditures received by
             these 16 sponsors ($34.6 million annually) total about 12 percent of
             the total program expenditures in the 10 States where these sponsors
             were operating, excluding the funding for independent child care
             centers.




USDA/OIG-A/27601-7-SF                                                      Page 7
             Figure 1: Number of Locations Reviewed, by State




             AUDITS AND INVESTIGATIONS

             As of February 19, 1999, we have issued 27 audit reports on
             sponsors participating in the CACFP. As of that date, an additional
             6 audits were in process, as were many of the 31 investigations. A
             summary of the results of our audits and investigations, by State,
             follows.

             Some of these investigations technically started before the initiation
             of Operation Kiddie Care. The results of all audits and investigations,
             however, are presented here because they demonstrate the type and
             magnitude of the problems in the CACFP.




USDA/OIG-A/27601-7-SF                                                       Page 8
             Alabama

             Quad County Child Nutrition Program, Audit No. 27010-2-At

             We reviewed Quad County Child Nutrition Program of Decatur,
             Alabama, at the request of the State agency. We determined that the
             sponsor met the FNS criteria of being seriously deficient in its
             administration of the program.

             Of the 115 providers we reviewed, 53 overclaimed reimbursements
             totaling $3,088 either for meals not served or for unauthorized or
             ineligible meals. The providers claimed meals for days we found
             them closed and for children we determined were absent. In addition,
             we noted compliance deficiencies involving improper record
             maintenance, expired provider eligibility determinations, and license
             capacity violations. The State and sponsors' oversight of day care
             home providers was not sufficient to prevent and detect material
             compliance deficiencies and overclaims.

             Arizona

             Employee of Feeding Arizona Kids, Inc., Phoenix, Arizona
             (Investigation only)

             An investigation was initiated based on an allegation that the former
             office manager diverted money from the CACFP to her own use. The
             former office manager of an Arizona CACFP sponsoring agency was
             placed on probation for 5 years and was ordered to pay FNS $31,900
             in restitution after she pled guilty to theft of Government money. Our
             investigation disclosed that the manager diverted money by writing 61
             checks on the sponsoring agency's account, made payable to
             individuals whom she had falsely represented as day care providers.
             She then deposited all but one of these checks into her personal
             account.

             Feeding Arizona Kids, Inc., Audit No. 27010-6-SF

             We reviewed Feeding Arizona Kids, Inc., of Phoenix, Arizona, based
             on information provided by the State agency and our analysis of State
             agency files. We determined that the sponsor met the FNS criteria
             of being seriously deficient in its administration of the program.




USDA/OIG-A/27601-7-SF                                                      Page 9
             We questioned $45,409 in unallowable, unapproved, or unsupported
             expenditures. About half of this amount was paid for employee
             benefits, while about $3,600 was paid as consulting fees to board
             members or employees. Also, the sponsor did not adequately train
             and monitor its providers.


             B J Enterprises, Inc., Audit No. 27010-7-SF

             We reviewed B J Enterprises, Inc., of Scottsdale, Arizona, based on
             our analysis of sponsor files maintained by the State agency. We
             found the sponsor to be seriously deficient in its administration of the
             program.

             We questioned $8,322 in unallowable and unsupported
             administrative costs. We also concluded that the sponsor failed to
             adequately monitor program operations in its day care homes, which
             may have contributed to the meal overclaims submitted by providers.

             Arkansas

             Operation Kids, Inc., Audit No. 27601-6-Te

             Operation Kids, Inc., of Camden, Arkansas, was selected for review
             based on our risk assessments of six sponsors whose files we
             reviewed at the State agency. In addition, Operation Kids, Inc., was
             identified to us by the State agency as a potential audit candidate.
             We did not identify any significant program abuses by this sponsor.
             However, we did find that over 20-percent of the providers had not
             received the required annual training. The sponsor did not have a
             system in place to track provider training.

             California

             Angela's Angels Preschool, Inc., Audit No. 27010-2-SF

             Angela's Angels Preschool, Inc., of Visalia, California, was one of the
             first CACFP sponsors we reviewed and was the precursor to our
             nationwide review of CACFP sponsors. FNS referred this sponsor to
             us based on an anonymous complaint received by another State
             agency and passed along to the California State Department of
             Education (CDE).



USDA/OIG-A/27601-7-SF                                                       Page 10
             Based on our audit results, the sponsor was found to be seriously
             deficient in administration of the CACFP and was terminated from the
             program. The sponsor's onsite reviews of its providers were not
             thorough and were always announced in advance, and all required
             reviews were not conducted. The sponsor did not keep accurate and
             complete records and did not adequately review and verify the
             providers' claims for reimbursement. The sponsor also did not
             disburse program funds to providers in a timely manner.

             The husband and wife who owned and operated the business were
             charged in a 23-count Federal indictment and were subsequently
             arrested. The charges included conspiracy, perjury, obstruction of
             justice, and mail fraud.

             It is alleged that the couple paid themselves reimbursements for
             meals claimed on behalf of providers who no longer participated in
             the program, paid meal reimbursements to full-time employees based
             on false claims which the employees submitted, and created false
             home inspection reports to conceal the fact that employees were not
             making required home inspection visits. They are awaiting trial.

             Three of the couple's former employees have already pled guilty to
             mail fraud charges associated with the submission of false day care
             home provider claims. These 3 employees were each sentenced to
             5 years' probation and 90 days home detention and each ordered to
             pay USDA $12,000 in restitution.

             Pacific Asian-American Family Care, Inc., Audit No. 27010-4-SF

             We reviewed Pacific Asian American Family Care, Inc., of Long
             Beach, California, at the request of the California State Department
             of Education, which had expressed concerns about the sponsor's
             operation. Based on the results of our audit, the sponsor was found
             to be seriously deficient in administration of the CACFP and was
             terminated from the program.

             Specifically, the sponsor failed to provide support for the
             administrative costs it claimed. Furthermore, the limited records we
             were provided indicated that excessive and unallowable personal
             expenses may have been charged to the program. As a result, we
             questioned all of the $3.3 million paid to the sponsor for
             reimbursement of administrative costs from 1991 through 1996.



USDA/OIG-A/27601-7-SF                                                   Page 11
             The wife was also a manager for the State Department of Education,
             which was responsible for administering the program. As a manager
             for the State, the wife was responsible for overseeing this and other
             sponsors in Southern California.

             Criminal charges were filed against the husband and wife who owned
             and operated this sponsorship. The couple was charged with
             defrauding the program of approximately $2.2 million by submitting
             inflated budgets and by diverting CACFP funds to themselves through
             "payments" to nonexistent employees and bogus business entities.

             Following their guilty pleas, the husband was sentenced to 2 years in
             Federal prison and the wife to 3 years. They were ordered to pay the
             Government $2.2 million in restitution and forfeited four properties
             they owned, including their 5,000 square-foot home in an exclusive
             neighborhood in Southern California (see photo no. 2).




             PHOTO NO. 2 - 5,000 SQUARE-FOOT HOME FORFEITED BY PAAM, A CALIFORNIA CACFP
             SPONSOR.




             Another property located in Southern California (see photo no. 3)
             which sold for $415,000, was forfeited by the sponsor.



USDA/OIG-A/27601-7-SF                                                              Page 12
             PHOTO NO. 3 - ANOTHER HOME (SOLD FOR $415,000) FORFEITED BY PAAM, A CALIFORNIA
             CACFP SPONSOR.



             The sponsor's former executive director and program director
             engaged in a separate fraud scheme. They submitted false claims for
             nonparticipating providers, and, as a result, the sponsor was
             reimbursed in excess of $60,000 for these claims. The executive
             director and program director used these funds for their own personal
             use. Following their guilty pleas, they were each sentenced to 7
             months in prison, 3 years' probation, and ordered to pay a total of
             $60,000 in restitution.

             Community Business Improvement Association, Inc., Audit No.
             27010-9-SF

             Community Business Improvement Association, Inc., of Pasadena,
             California, was selected for review based on a whistleblower
             complaint. The sponsor was found to be seriously deficient in its
             administration of the program.

             The former manager of the sponsor admitted to having
             misappropriated CACFP funds by submitting false claims for a
             nonexistent provider. The former manager and an accomplice pled



USDA/OIG-A/27601-7-SF                                                              Page 13
             guilty to making a false statement in connection with CACFP provider
             claims. They conspired to create a fictitious child care provider and
             illegally obtained over $23,000 in CACFP funds. They were each
             sentenced to 3 years' probation and 6 months in a home detention
             program, and ordered to pay a $100 fine. They were also ordered to
             pay the total restitution amount of $23,340. The investigation also
             disclosed that a former California Department of Social Services
             employee furnished the former manager with a fictitious State child
             care license.

             The sponsor's former manager herself admitted to falsifying home
             inspection reports for 20 to 50 percent of the required home visits.

             We also questioned administrative costs totaling $462,387. The
             sponsor claimed unsupported payroll costs of $372,613, most of
             which was paid to the executive director and three other key
             employees, all of whom were related. The sponsor also claimed an
             estimated $59,800 in rent that was unallowable because the property
             was owned by the executive director and her husband. The sponsor
             claimed about $11,000 in vehicle lease costs it could not support, and
             it received $18,000 in program funds it could not account for.

             Furthermore, the three employees were engaged in non-program
             activities. The executive director and the accountant apparently
             operated a bail bonds business from the same location that housed
             the sponsor's offices (see photo no. 4). Although the executive
             director said that business was operated from their home, she
             acknowledged that the bail bonds telephone number rang both at the
             office and at their home. Furthermore, we noted that the office
             building's signs clearly marked it as a bail bonds business (also
             offering income tax, fax, and notary services).




USDA/OIG-A/27601-7-SF                                                     Page 14
             PHOTO NO. 4 - BUILDING OWNED BY CBIA'S EXECUTIVE DIRECTOR AND HER HUSBAND
             SHOWING BAIL BOND AND OTHER SERVICES AVAILABLE ON FIRST FLOOR. CACFP OFFICES
             WERE LOCATED ON THE SECOND FLOOR.



             The sponsor also failed to pay all its providers and centers within the
             time period allowed.

             Aladdin Child Care Services, Audit No. 27010-11-SF

             We selected Aladdin Child Care Services (Aladdin) of Inglewood,
             California, after an OIG auditor pursued a lead on a complaint made
             against the sponsor. We obtained Aladdin's records with a subpoena
             when we found out that the sponsor was removing itself from program
             participation while still owing its day care centers thousands of dollars
             in food reimbursements. The sponsor met the criteria of being
             seriously deficient in its administration of the program.

             We found that this sponsor, before terminating itself from participation
             in the CACFP, used funds for unsupported and unallowable
             purposes. Although an absence of records prevented us from
             quantifying all of its questionable activities, we still identified about
             $800,000 in questionable costs and payments. The majority of day
             care centers were not paid for all meal reimbursements they were



USDA/OIG-A/27601-7-SF                                                             Page 15
             entitled to, and if they were paid, they were not paid on time. While
             the sponsor underpaid many of its day care centers, it usually
             overpaid the day care center that it owned. We found a large amount
             of unexplained payments to the sponsor's own day care center. The
             sponsor also used CACFP funds to pay for questionable
             administrative costs, such as construction costs, overdraft charges,
             and attorney fees.

             In October 1997, CDE issued an audit report on this entity covering
             fiscal years 1994 through 1996 and issued a qualified opinion
             because of "a material overpayment of reimbursements to the centers
             and agency" and "material noncompliance." However, the CDE did
             not believe the findings were material enough to terminate the
             sponsor from the CACFP.

             Even though CDE knew about Aladdin's questionable activities as
             early as January 1997, it did not take the necessary steps to correct
             these deficiencies or terminate Aladdin's participation in the CACFP.
             In fact, Aladdin received approximately $460,000 in program funds
             after CDE became aware of these deficiencies. We also found that
             Aladdin began paying centers even less of the total meal
             reimbursements due them after CDE became aware of the sponsor's
             problems.

             Children's Spectrum Child Care Services, Inc., Audit No. 27010-
             13-SF

             Children's Spectrum Child Care Services, Inc., of Yucca Valley,
             California, was originally selected by OIG because it oversees a large
             number of homes and centers, and because it fit our profile of a
             problem sponsor (it claimed 30 percent of day care center food
             reimbursements to cover administrative costs--see Finding No. 3).
             Subsequently, in response to our request to each of the States for
             potential review candidates, the CDE suggested this sponsor for
             review.

             This sponsor was found to be seriously deficient in its administration
             of the program, especially in the area of claimed administrative
             expenses. We questioned over $231,000 in administrative costs paid
             to or on behalf of the sponsor's administrative director. We also
             found that the sponsor did not adequately support the allocation of
             costs between its administration of day care homes, which offered a



USDA/OIG-A/27601-7-SF                                                     Page 16
             fixed reimbursement, and its administration of day care centers, which
             offered a much larger reimbursement.

             While residing and working in Wisconsin, the executive director
             claimed a salary from the California sponsorship and had the
             exclusive use of a leased vehicle that was charged to the program
             (see photo no. 5). We also determined that for a 6-month period, the
             executive director received Unemployment Compensation Benefits
             from Wisconsin despite receiving his salary from the sponsorship in
             California.




             PHOTO NO. 5 - VEHICLE LEASED BY CHILDREN'S SPECTRUM WITH CACFP FUNDS. PARKED AT
             WISCONSIN LOCATION WHERE CHILDREN'S SPECTRUM'S EXECUTIVE DIRECTOR HAD ANOTHER
             FULL-TIME JOB.



             A criminal complaint has been filed in Wisconsin against the
             executive director for allegedly receiving unemployment benefits in
             Wisconsin while being employed full-time in California as the
             executive director of a CACFP sponsor.




USDA/OIG-A/27601-7-SF                                                             Page 17
             A Perfect Balance, Inc., Audit No. 27010-14-SF

             We selected A Perfect Balance Inc., of Diamond Bar, California, for
             review because, like Children's Spectrum, it used day care center
             food reimbursements to cover administrative costs. The sponsor was
             found to be seriously deficient in its administration of the program.
             The sponsor delayed over $40,000 in meal reimbursement to its
             centers and homes, and claimed over $6,000 in unallowable or
             unsupported administrative costs. We also determined that the
             sponsor had not paid creditors when bills were due even though the
             sponsor had requested and received an administrative advance. The
             sponsor also did not properly staff the office during normal business
             hours.

             Sunshine Family Day Care Services, Inc., Fallbrook, California
             (Investigation only)

             The sponsor is currently not participating in the CACFP and is being
             investigated for program fraud. It appears that the sponsor
             fraudulently claimed administrative funds. The State agency initiated
             the investigation by seizing the sponsor's records through a search
             warrant.

             Criminal charges were filed against the husband, wife, and daughter
             who owned and operated this sponsorship. A 10-count indictment
             was filed against the three defendants for mail fraud for fraudulently
             obtaining over $95,000 from the State agency and the CACFP. The
             defendants used various schemes to inflate claims for reimbursement
             and also falsified reports to make it appear that they were properly
             monitoring approximately 1,000 day care homes which they
             sponsored.

             Child Care Coordinating Council of Northern California
             (Investigation only)

             An investigation was initiated following the confession of the
             executive director. The sponsor was terminated from the program in
             April 1995 and was investigated for program fraud. The former
             director confessed to submitting false invoices to the State agency
             and using the illegally obtained CACFP funds to pay nearly $300,000
             to three individuals for bogus salaries and consulting services. These
             three individuals whom the former director paid pled guilty to mail



USDA/OIG-A/27601-7-SF                                                     Page 18
             fraud and were sentenced to prison. The former director also pled
             guilty to submitting false claims and was sentenced to 2 months in
             community confinement, 2 months home detention, and ordered to
             pay $306,000 restitution.

             This investigation was initiated prior to the start of Operation Kiddie
             Care.

             Florida

             Family Day Care Services, Inc., Audit No. 27601-7-At

             Family Day Care Services, Inc., (FDS) of West Palm Beach, Florida,
             was selected for review based on the recommendation of the State
             agency. The State agency had identified material compliance
             deficiencies with FDS' administration of the program and received
             complaints from providers and legislators regarding FDS delays in
             payment of provider claims. The fact that FDS was the largest
             nongovernmental affiliated sponsor was also a criterion in our
             selection.

             Based on the results of our audit, the sponsor was found seriously
             deficient in administration of the CACFP and was terminated from the
             program. FDS inflated claims it submitted to the State for meal
             reimbursements and did not maintain adequate accounting and other
             fiscal records to support its administrative costs. We questioned
             $123,730 in meal reimbursements paid to FDS due to inflated
             monthly claims, and $197,747 of the administrative costs paid to FDS
             due to its failure to provide fiscal records to support the cost.

             FDS also failed to adequately monitor the operations of its providers.
             As a result, providers claimed excessive reimbursement for meals not
             served and for ineligible meals. In addition, the sponsor did not
             provide annual training to its providers.

             Idaho

             Kiddie Korner Kid Kare, Inc., Idaho (Investigation only)

             An investigation was initiated based on State agency concerns
             regarding suspected fraud by the director. The director of two centers
             submitted false claims totaling $83,000. She was sentenced to serve



USDA/OIG-A/27601-7-SF                                                      Page 19
             8 months in prison followed by 3 years of probation. She was also
             ordered to pay $62,951 in restitution and $100 in fines. The court
             further ordered her to relinquish her day care license and not reapply
             for 5 years, during which time she was to refrain from any
             participation in child care, whether paid or unpaid.

             Illinois

             Ken-Kia Child Development, Inc., Audit No. 27010-10-Ch

             Ken-Kia Child Development, Inc., of Hazelcrest, Illinois, was selected
             for review based on State agency concerns regarding its
             administration of the program, and on the size of its operation. This
             sponsor met the criteria of being seriously deficient in its
             administration of the program.

             Our unannounced visits to day care home providers disclosed that
             the sponsor's monitoring visits were generally ineffective in assessing
             compliance with program requirements. We found that providers did
             not maintain adequate records. Unsupported meal claims totaled
             $14,568 for the month under review. Some providers even claimed
             meals for children who were not present during our visits. We also
             found that providers claimed meals on days when they were not
             actually in operation or when they were caring only for their own
             children.

             We noted sanitation and safety deficiencies at some providers, and
             found providers who did not comply with licensing requirements and
             exceeded their authorized capacity. Finally, the sponsor did not
             require that day care providers attend annual training sessions.

             YWCA of Metropolitan Chicago, Audit No. 27601-17-Ch

             YWCA of Metropolitan Chicago, Illinois, was selected for review
             based on problems identified by the State agency. The sponsor met
             the criteria of being seriously deficient in its administration of the
             program.

             The YWCA needed to perform more timely and thorough monitoring
             visits of its providers. Eighty-nine percent of the providers we
             reviewed did not maintain adequate records of the number and/or
             type of meals being served. In addition, 43-percent of the providers



USDA/OIG-A/27601-7-SF                                                      Page 20
             claimed meals served (1) for children who were absent or were not
             enrolled in the program, (2) for days when only their own children
             were present, or (3) for days on which they did not provide service.
             One provider claimed meals served at an address which we
             discovered to be vacant.

             We attributed the deficiencies to inadequate monitoring and training
             on the part of the sponsor. This sponsor did not perform and/or
             document that it had performed the required monitoring and could not
             provide evidence that it had properly trained the providers.

             Human Development Center, Audit No. 27601-18-Ch

             Human Development Center of Harvey, Illinois, was judgmentally
             selected for review. The sponsor met the criteria of being seriously
             deficient in its administration of the program. Specifically, the
             sponsor's monitoring visits were generally ineffective in assessing
             compliance with program requirements. Providers did not maintain
             adequate records of the number and type of meals being served and
             claimed meals for children who were absent or were no longer
             participating in the program. Some providers also claimed meals that
             were served to their own children at times when no other children
             were present, or were served on days when they were not in
             operation. At least one provider claimed meals for an unlicensed
             location.

             The sponsor's reviews of providers' monthly meal claims were not
             adequate to disclose the problems we identified in our review.

             Louisiana

             Sage Community Providers, Inc., Audit No. 27601-5-Te

             Sage Community Providers, Inc., of New Orleans, Louisiana, was
             selected based on our risk assessment of two sponsors referred by
             the State agency and on advice from the Office of Inspector General,
             Investigations. The sponsor was found to be seriously deficient in its
             administration of the program and terminated itself from the CACFP.

             We reviewed the sponsor's bank statements for a 7-month period and
             questioned whether $34,800 in checks to 45 providers was for




USDA/OIG-A/27601-7-SF                                                     Page 21
             legitimate meal reimbursements. The checks did not appear to have
             been received by the providers as reported by the sponsor.

             The sponsor also failed to provide adequate support for all
             administrative costs claimed and did not limit claims to actual
             expenses when the maximum allowable per-home claim was greater.
             We questioned over $18,000 in administrative costs claimed.

             The sponsor did not adequately monitor its providers' operations.
             The reviews were not thorough, and many may not have been
             conducted. Of 525 sponsor monitoring visits, only 1 percent indicated
             problems with the providers; by contrast, of the providers visited by
             OIG, 35-percent made claims on days when they were not home or
             had no children in their care. Eighty-six percent of the providers we
             visited received excessive meal reimbursements totaling over $9,000.
             These overpayments occurred because the providers failed to comply
             with program and recordkeeping requirements.

             Lunch, Inc., Audit No. 27010-3-Te

             Lunch, Inc., of Baton Rouge, Louisiana, was selected for review
             based on recommendations of the FNS regional office and concerns
             of Louisiana State agency officials. We did not identify any
             significant program abuses by this sponsor. However, we did identify
             several conditions that required corrective action.

             Thirteen providers had not obtained the required annual training and
             consequently did not meet the State's registration requirements. The
             sponsor was ineligible for the $840 in administrative reimbursement
             it received while the providers were out of compliance.

             During our home visits, we found that ten of the providers did not
             keep their records current. Also, some providers claimed meals for
             days when no one was home during our attempted visits or for
             children we did not observe in attendance on the day of our visit.




USDA/OIG-A/27601-7-SF                                                    Page 22
             Maine

             Southern Maine Christian Day Care Services,
             Audit No. 27010-13-Hy

             Southern Maine Christian Day Care Services of Gorham, Maine, was
             reviewed as part of the nationwide review of CACFP sponsors. The
             sponsor was found to be seriously deficient in its administration of the
             program. Our unannounced visits to providers and a statistical review
             of the providers' claims for reimbursement disclosed widespread
             noncompliance with meal counting and service regulations.

             The sponsor did not effectively administer either provider or financial
             operations and failed to correct reported accounting system
             deficiencies. We identified related-party financial transactions of over
             $393,000 that were not allowable or reasonable. The primary cause
             of these deficiencies was the sponsor's ongoing disregard for
             regulations governing program operations and the allowability of
             administrative costs.

             Michigan

             MAJCO, Inc., Detroit, Michigan (Investigation only)

             An investigation was initiated based on a complaint made by an
             employee of the sponsor. A former city school board member and her
             assistant were indicted for falsifying claims from 16 day care centers
             the board member owned and operated.                The investigation
             determined that between 1980 and 1993, the centers defrauded
             USDA of approximately $27 million in CACFP funds.                 The
             investigation disclosed that the board member and the assistant
             inflated meal count sheets and falsified supporting documentation.
             A food vendor admitted supplying false invoices to inflate the day
             care centers' food costs to substantiate the false meal count sheets.
             The board member has been convicted for fraudulently obtaining
             $15.5 million in CACFP funds.

             This investigation started before the initiation of Operation Kiddie
             Care. The results are included in this report, however, because it
             demonstrates the type and magnitude of the problems in the CACFP.
             Prior to prosecution, MAJCO was terminated by the State agency.




USDA/OIG-A/27601-7-SF                                                       Page 23
             Missouri

             Child Nutrition Services, Inc. Audit No. 27010-1-KC

             Child Nutrition Services, Inc., of Gladstone, Missouri, was selected
             based on FNS regional office response and a review of sponsor
             records at the State agency. We did not identify any significant
             program abuses by this sponsor. However, we did identify several
             conditions that require corrective action.

             Problems existed with the sponsor's monitoring and training of
             providers. We questioned meal claims by providers who, during our
             visits, were behind in their meal counts or who, also during our visits,
             had completed their meal claim records ahead of the meal served.
             Eight providers had unreasonable meal claims. We questioned over
             $12,000 in meals claimed by the providers we visited. We eventually
             billed and collected almost $7,500 associated with the questionable
             meals claimed.

             New Mexico

             Connections, Inc., Audit No. 27010-04-Te

             Connections, Inc., of Gallup, New Mexico, was randomly selected for
             review from a group of sponsors with 200 or more day care home
             providers. The sponsor was found to be seriously deficient in its
             administration of the program.

             We found various problems with the providers: they were not at home
             at the time of our visits, they did not keep their records current, they
             claimed meals for children not present, and they claimed nonresident
             children as residents to circumvent State licensing regulations. We
             questioned about $6,000 related to these problems for the month of
             our review.

             We also found various problems with the sponsor: monitors did not
             report attendance and menu recordkeeping violations; the sponsor
             improperly charged more administrative costs to the CACFP than to
             the other State and local programs it operated; and the sponsor did
             not ensure that providers received required annual training.




USDA/OIG-A/27601-7-SF                                                       Page 24
             Employee of Families and Youth, Inc., Sunland Park, New Mexico
             (Investigation only)

             An investigation was initiated based on a referral from the General
             Counsel, New Mexico Children, Youth and Families Department. Our
             investigation disclosed that a site representative forged and
             negotiated 68 checks issued to day care providers and altered
             computerized records to increase payments to some providers. She
             was placed on supervised probation for 5 years, and ordered to pay
             $17,426 in restitution.

             North Carolina

             Cape Fear Tutoring, Inc., Audit No. 27601-4-At

             Cape Fear Tutoring, Inc., of Wilmington, North Carolina, was selected
             for review based on its large size and rapid growth. We did not
             identify any significant program abuses by the sponsor. However, we
             did identify several conditions that require corrective action.

             The sponsor's oversight of providers' claims was deficient. Twenty-
             five percent of the providers we visited claimed meals they did not
             serve. The sponsor's monitoring procedures were not sufficient to
             identify the types of deficiencies we found. The monitors announced
             their visits in advance and did not perform evaluations of child
             enrollment, attendance, and meal count data.

             The sponsor did not train all providers on their duties and
             responsibilities. The sponsor also did not maintain the required
             enrollment information for children under the care of the providers.
             Without this information, the sponsor cannot ensure the children
             claimed by the providers are eligible for meal service.

             Ohio

             New Jerusalem Church of God in Christ, Audit No. 27010-9-Ch

             We reviewed the New Jerusalem Church of God in Christ of Toledo,
             Ohio, as part of our nationwide review of CACFP sponsors. The
             sponsor met the criteria of being seriously deficient in its
             administration of the program and was terminated from the CACFP.




USDA/OIG-A/27601-7-SF                                                    Page 25
             Our visits to the sponsor's provider homes showed that 5 provider
             addresses did not appear to exist. In some cases, provider
             addresses were for abandoned houses or vacant lots (see photo no.
             6), and in other cases, residents at the addresses denied any
             association with the CACFP or the sponsor. At 21 homes, we found
             no one home during established serving hours despite repeated visits
             and telephone calls. Furthermore, we found 22 instances where the
             name of the provider, as documented in the sponsor's records, was
             not the same as the name of the resident. One month after our home
             visits, 80-percent of the providers that did not appear to exist
             submitted claims for meal reimbursements of about $23,300, and the
             sponsor claimed $1,848 in administrative costs associated with those
             providers.




             PHOTO NO. 6 - VACANT LOT LISTED AS ADDRESS FOR ACTIVE DAY CARE PROVIDER
             SPONSORED BY NEW JERUSALEM CHURCH OF GOD IN CHRIST IN OHIO.



             Seven persons, including the director of this sponsor, admitted to
             conspiring to illegally obtain more that $1.1 million in CACFP funds
             through this sponsorship over a period of about 10 years. The
             defendants were charged with submitting false reimbursement claims.
             The claims were based on fictitious provider homes which allegedly
             provided meals to children in residential day care facilities. Each of



USDA/OIG-A/27601-7-SF                                                              Page 26
             the defendants received numerous reimbursement checks, which they
             cashed upon receipt. They kept some of the proceeds for their own
             benefit and gave the remaining funds to another provider, who
             falsified the sponsor's records to conceal the fraud.

             Nine individuals have been indicted and seven have pled guilty and
             were sentenced. The sentences range from 3 years' probation to
             almost 3 years' incarceration. They were ordered to pay restitution
             ranging from about $7,000 to over $790,000 each. Total restitution
             exceeded $1.3 million.

             We also found five homes that were so unsanitary as to potentially
             endanger the health of the children being cared for. We noted that
             the sponsor appeared to have lost its nonprofit status with the Internal
             Revenue Service in July 1994.

             Oregon

             Child Care Services, Inc., Audit No. 27010-5-SF

             We selected Child Care Services, Inc., of Roseburg, Oregon, for
             review based on our review of information at the FNS Regional Office
             and the Oregon State agency. The sponsor was found to be
             seriously deficient in its administration of the program and was
             terminated from the CACFP.

             The sponsor did not perform all required monitoring visits and the
             visits that were performed were ineffective in ensuring provider
             compliance with program requirements.         We attributed the
             deficiencies we found at providers' homes, in part, to inadequate
             training.

             Providers did not maintain the required meal counts, menus, and
             attendance records, and they served meals that did not include the
             required meal components. We referred four providers to the State
             licensing agency for health or safety concerns.

             The sponsor claimed unallowable, unapproved, and unsupported
             administrative costs totaling $15,035. The sponsor claimed costs for
             more telephones, salaries, and employee medical and dental benefits
             than had been approved in its budget. The sponsor also ran a




USDA/OIG-A/27601-7-SF                                                       Page 27
             referral service for providers and parents in southern Oregon, an
             activity requiring State approval, which the sponsor did not have.

             Two of the sponsor's providers received CACFP benefits for their own
             children, based on their participation in the Food Stamp Program
             (FSP). However, it appeared the providers may have underreported
             their income from day care operations to the State FSP agency,
             making themselves appear eligible for benefits they were not entitled
             to.

             Pennsylvania

             Children's Best Interests, Inc., Audit No. 27010-20-Hy

             Children's Best Interest, Inc., of Dover, Pennsylvania, was reviewed
             as part of our nationwide audit of CACFP sponsors. The sponsor was
             found to be seriously deficient in its administration of the program and
             was terminated from the CACFP.

             Our unannounced visits to the providers and a review of the
             providers' claims for reimbursement disclosed widespread
             noncompliance with meal counting and service regulations and
             overclaims of about $15,700 for the month under review. We also
             noted that some homes were not in compliance with licensing
             requirements governing capacity limits.

             Our visits also identified one provider who was participating in the
             CACFP simultaneously under two sponsoring organizations. At two
             providers, conditions were of such severity (crowded and unsanitary)
             that we immediately referred the child safety concerns to
             Pennsylvania Department of Public Welfare officials for investigation.

             The sponsor had not obtained the required sponsor audits for fiscal
             years 1996 and 1997 in a timely manner and did not complete all
             required monitoring visits for 1997. Nine facilities did not meet the
             definition of a "home" and were not eligible for CACFP funding.

             CT Child Nutrition Services, Pennsylvania (Investigation only)

             An investigation was initiated based on a referral from FNS. A former
             sponsor official pled guilty to embezzlement, misapplication of funds,
             and theft totaling $92,000 from the CACFP. She failed to reimburse



USDA/OIG-A/27601-7-SF                                                       Page 28
             200 day care homes and misused funds to cover administrative
             expenses. The official used the embezzled money to cover personal
             expenses, such as her mortgage, and to buy equipment for a
             restaurant she owned. Sentencing will not take place due to the
             recent death of the official.

             This investigation started before the initiation of Operation Kiddie
             Care. The results are included in this report, however, because it
             demonstrates the type and magnitude of the problems in the CACFP.
             Prior to prosecution, CT Child Nutrition Services was terminated by
             the State agency.

             Tennessee

             Child Care Nutrition, Inc., Tennessee (Investigation only)

             An investigation was initiated based on a review by the State agency
             which revealed that the executive director had inflated claims for
             reimbursement. The former sponsor official of 69 day care homes
             was sentenced to serve 9 years and 2 months in prison and ordered
             to pay restitution of over $127,400 after being convicted at trial on
             59 counts for mail fraud, making false statements, and money
             laundering. The official inflated the number of children enrolled and
             the number of meals claimed, paid the day care homes the correct
             amount, and then issued a second check in the sponsor's name for
             the inflated amount. Our investigation, conducted jointly with the IRS
             and the Federal Bureau of Investigation (FBI), disclosed false claims
             totaling approximately $127,000, including payments issued in the
             names of 15 individuals who were not program participants.

             Utah

             Children Of The Future, Audit No. 27601-7-KC

             Children of the Future of Salt Lake City, Utah, was selected for review
             based on a complaint received by the FBI and a review of State
             agency records. This sponsor was found to be seriously deficient in
             its administration of the program and was terminated from the
             CACFP.




USDA/OIG-A/27601-7-SF                                                      Page 29
             The sponsor misused Federal funds by requiring some providers to
             return a large portion of their reimbursement checks to the sponsor.
             The sponsor wrote checks to providers who no longer participated in
             the program and got other providers to cash the checks. The sponsor
             also gave some providers fictitious children's names to include on
             their meal claim forms and asked those providers to give the sponsor
             the money associated with the fictitious children.

             Providers received about $53,000 in questionable reimbursements
             from the sponsor but returned approximately $3,300 of this to the
             sponsor after they were threatened.


             Federal prosecutors charged the couple who owned the sponsorship
             with 117 counts of making false statements to a Government agency,
             and of embezzlement and misapplication of CACFP funds. One of
             the providers, who was working in concert with the sponsors, was
             arrested and charged in a 21-count Federal indictment. She was
             charged with making false statements to FNS on meal claim forms.
             She claimed meals when in fact she did not provide any. She was
             also involved in demanding and receiving kickbacks from providers.
             She collected approximately $16,000 in provider money and handed
             it over to the sponsor. In return for her guilty plea, the provider will
             cooperate with OIG and testify against the sponsor.

             A child care monitor working for the sponsor also admitted that he
             obtained checks and received kickbacks from child care providers.
             The monitor also admitted that he operated a pawn shop and that he
             loaned money to the providers through the pawn shop and accepted
             their child care checks as payments.

             The couple who owned the sponsorship oversaw more than 400 day
             care home providers while operating a medical business in Lima,
             Peru. During provider visits, the sponsor did not ensure that the
             providers maintained a safe environment for the children enrolled in
             the program, and it did not emphasize the importance of following
             menus or meeting meal components.           In fact, the sponsor
             discouraged providers from noting meal substitutions on the meal
             claim forms.

             Several day care home providers lived in an apartment complex,
             shown in the following picture, which, in our opinion, was not safe for



USDA/OIG-A/27601-7-SF                                                      Page 30
             children (see photo no. 7). For example, we observed a broken chain
             link fence laying across the sidewalk, electrical wiring hanging over
             an apartment entrance, and hazardous debris laying outside the
             apartments.

             Another provider cared for children in a small trailer (see photo no. 8),
             where we observed broken bottles and an overflowing trash
             container.




USDA/OIG-A/27601-7-SF                                                       Page 31
             PHOTO NO. 7 - UNSAFE CONDITIONS AT A UTAH APARTMENT COMPLEX WHERE SEVERAL DAY
             CARE PROVIDERS OPERATED.




             PHOTO NO. 8 - UNSAFE CONDITIONS OBSERVED AT SMALL TRAILER USED FOR DAY CARE IN
             UTAH.




USDA/OIG-A/27601-7-SF                                                              Page 32
             New Life For Children, Audit No. 27010-2-KC

             New Life For Children, of Salt Lake City, Utah, was selected for
             review based on a review of State agency records. We did not
             identify any significant program abuses by the sponsor. However, we
             did identify several conditions that require corrective action.

             Problems existed with the sponsor's monitoring of providers. We
             questioned meal claims for 93 providers visited who exhibited poor
             recordkeeping and/or submitted unreasonable meal claims. The
             sponsor's controls over employee time sheets also needed
             improvement, and leases from sponsor management needed to be
             discontinued. We questioned $14,125 in meals claimed for 93 of the
             203 providers visited.

             Washington

             King County Family Child Care Association, Audit No.
             27010-12-SF

             King County Family Child Care Association of Seattle, Washington,
             was selected for review based on allegations of improprieties
             received from an anonymous source. The sponsor was found to be
             seriously deficient in its administration of the program.

             The director allowed an environment to exist in which two high-level
             employees appeared unaccountable for their activities and their
             adherence to program requirements. One employee was the
             assistant director/monitor and the other employee was a senior
             monitor.

             Time, mileage, and monitoring reports prepared by these two
             individuals could not be reconciled with their required provider visits.
             Provider visits were recorded for days the employees were not
             working, and the numbers of visits recorded for some days were
             implausible. Mileage reports and monitoring reports sometimes listed
             different providers. Providers confirmed to us that the monitors were
             not actually making visits and were not providing program assistance.
             Some providers noted that the "provider" signatures on the monitoring
             reports were not theirs.



USDA/OIG-A/27601-7-SF                                                       Page 33
             Because of the conflicting records and serious discrepancies noted,
             we questioned the salaries and travel expenses of these individuals.
             This amount totaled $241,970.

             We also found several situations that we believe constitute conflicts
             of interest. The director and one employee were both affiliated with
             day care homes under this sponsorship. Four members of the board
             of directors, who exercised oversight of the director, had homes under
             the director's supervision.

             Additionally, the sponsor submitted claim information from providers
             that did not reconcile with monitoring reports, and it claimed
             administrative expenses unrelated to the CACFP.

             Provider of Rainbow Valley Day Care Homes, Mountlake Terrace,
             Washington (Investigation only)

             An investigation was initiated based on an allegation that the day
             care home provider submitted false claims for meals served to her
             own children. Our investigation disclosed that the provider illegally
             obtained $4,400 in reimbursement for meals served to her own
             children, by underreporting her household income. She was placed
             on probation for 3 years and was ordered to make full restitution.

             Wisconsin

             Social Development Commission, Audit No. 27601-15-Ch

             We selected the Social Development Commission of Milwaukee,
             Wisconsin, for review based on a potential connection with a sponsor
             operating in California. The sponsor met the criteria of being
             seriously deficient in its administration of the program.

             Beginning in at least 1993, this sponsor accumulated an unexpended
             surplus of CACFP reimbursements that reached $1.1 million. The
             State agency, which knew of the growing surplus, did not ensure that
             funds were spent in a timely manner. For the month of March 1998,
             the sponsor showed a $220,545 deficit in its operating account to
             cover the recorded surplus. We also noted that the sponsor had not
             credited investment interest which had been earned on these surplus
             funds which amounted to over $44,200.




USDA/OIG-A/27601-7-SF                                                     Page 34
             We also found that the sponsor's accounting system did not ensure
             that revenues earned were solely used for the CACFP, and we
             believe it is possible that the surplus funds may have been used for
             nonprogram purposes.

             The following table summarizes the audits and investigations reported
             on and in progress.




USDA/OIG-A/27601-7-SF                                                    Page 35
             Figure 2: Status of Audits and Investigations
                                                                                                              Individuals
                                                                                            Sponsors           Indicted or
                                                                                           Terminated         Named in a
                                 Investigations          Audits           Audits in         From the            Criminal
                     State1        in Progress         Completed          Progress          Program           Information


                 Alabama                                    1
                 Arizona               1                    2                                                      1
                 Arkansas                                   1
                 California            8                    6                  3                5                 19
                 Colorado              1                                       1
                 Florida               2                    1                                   1
                 Idaho                 1                                                        1                  1
                 Illinois                                   3
                 Louisiana             2                    2                                   1
                 Maine                                      1
                 Michigan              1                                                        1                  2
                 Missouri                                   1
                 New Mexico            2                    1                                                      1
                 New York              2                                       1                                   1
                 North                                      1
                 Carolina

                 Ohio                  2                    1                                   1                 11
                 Oregon                                     1                                   1
                 Pennsylvania          3                    1                                   2                  1
                 Tennessee             3                                                        2                  3
                 Utah                  1                    2                                   1                  4
                 Washington            2                    1
                 Wisconsin                                  1                  1
                  TOTALS              31                   271                 6               16                 44

             1
              Four audit surveys were also performed in Arkansas, Illinois, and Indiana but the findings did not warrant audit
             reports.




USDA/OIG-A/27601-7-SF                                                                                          Page 36
             During Operation Kiddie Care, 16 sponsors were terminated from the
             CACFP, and 44 individuals were indicted or named in criminal
             informations for engaging in fraud or similar criminal activities. All of
             the 16 sponsors were private, nonprofit organizations that were in
             business solely to participate in the CACFP. These sponsors took
             advantage of the trust that the program places on them to provide
             oversight and maintain the integrity of the program. Because current
             program delivery methods depend on a high level of trust at the
             sponsor level, and that trust has been repeatedly violated, we believe
             FNS needs to seek new methods of delivering the CACFP that do not
             rely so completely on nonprofit sponsoring organizations. In the
             meantime, FNS needs to tighten the controls over these organizations
             to prevent and detect the types of abuses detailed in this report.

             Exhibit A shows the States the terminated sponsors were operating
             in and the annual program funding in food and administrative funds
             paid to and through the terminated sponsors. Exhibit B is a summary
             of the status of investigations in process as of February 19, 1999.
             Exhibit C presents an overall summary of the audits and
             investigations conducted as part of Operation Kiddie Care.


      RECOMMENDATION NO. 1


             Study alternative methods of delivering a meal program to children
             and adults in day care, specifically one that addresses the problems
             noted in this report at private, nonprofit organizations.

             While the above study is underway and the program continues in its
             current form, FNS also needs to strengthen controls by implementing
             the recommendations provided at the end of Finding No. 2.




USDA/OIG-A/27601-7-SF                                                       Page 37
               FNS Response

               In its written response to the draft report, dated July 27, 1999, FNS
               stated, "In the Fall 1999, a task force will be assembled to study
               alternative methods of delivering a meal program."

               OIG Position

               In order to reach management decision, FNS needs to provide details
               of how, when, and by whom this study will be conducted. As stated
               in this audit report, FNS has been studying how to improve the
               integrity in the CACFP since March 1995. Specific timeframes and
               objectives need to be established to complete this study.

               We urge FNS to give high priority to completing the study and to
               emphasize the most serious problems we have encountered --
               disreputable private nonprofit sponsors, the need for an alternative
               method of paying sponsors for their administrative costs, and the
               need for bonding of key sponsor officials (see also recommendations
               2h and 2k).


                                          Over the past 4 years, FNS has been
           FINDING NO. 2                  provided information which showed that
                                          significant problems exist in the
   FNS HAS NOT YET CORRECTED              CACFP.      Until recently, FNS has
  EXISTING PROBLEMS: IMMEDIATE            generally taken the position that the
  CONTROLS ARE NEEDED DURING              problems were not of a magnitude to
        PROGRAM REDESIGN                  warrant aggressive changes.         In
                                          responding to its own task force's call
                                          in 1995 for corrective action, FNS
                                          deferred implementation of any change
             until the end of the year 2000. We believe that the conditions we
             found require immediate corrective actions.

               Since March of 1995, OIG has issued two Nationwide reports and
               four national management alerts reporting significant problems in the
               CACFP. An FNS task force also issued a report that made 33
               recommendations to improve program integrity.




USDA/OIG-A/27601-7-SF                                                      Page 38
                   a. OIG Reported Problems in the Program in March 1995

                       In March 1995, OIG issued an audit report2 that detailed a review
                       of a randomly selected sample of sponsors and providers in the
                       States of California, Georgia, Kansas, Minnesota, and Texas. At
                       that time, these States disbursed to sponsors of day care homes
                       about $122 million for meals served and about $17.6 million for
                       sponsor administrative costs annually.

                       Based on the various conditions noted at the sample sponsors
                       and day care homes, OIG statistically estimated that within the
                       five States:

                       -   3,713 homes claimed meals totaling over $6 million, during the
                           period October 1992 through April 1993, for absent and/or
                           nonexistent children,

                       -   22,246 homes did not maintain current meal count and/or
                           menu records for meals served, resulting in unsupported meal
                           claims totaling over $2.5 million,

                       -   160 sponsors did not perform all required monitoring visits to
                           homes, and

                       -   201 sponsors did not require home providers to attend
                           program and child care training.

                       The audit concluded that management controls over program
                       operations were not well designed to prevent or detect inflated
                       and unsupported meal claims. Only 6 of the 38 sponsors
                       reviewed routinely contacted parents to verify child attendance
                       times and claimed meals. Only 16 of the 38 required that care
                       providers attend training.

                       The audit also concluded that State agency and FNS oversight
                       reviews did not focus on the primary management controls at the
                       sponsor and the day care homes. State agency administrative




  2
   Audit Report No. 27600-6-At, Food and Consumer Service, Child and Adult Care Food Program, Day
Care Homes-Nationwide, issued March 31, 1995.



USDA/OIG-A/27601-7-SF                                                                    Page 39
             reviews of sponsors and homes generally did not include sufficient
             tests to identify inflated and unsupported meal claims and assess the
             adequacy of sponsors' monitoring of homes. Most FNS management
             evaluations did not include sponsor or home visits.

                The audit recommended that FNS establish required review
                coverage areas for both State agencies and sponsors. It also
                recommended that FNS:

                (1)     explore alternative systems of administrative cost
                        reimbursement so the reimbursements are not directly
                        based on the number of homes and do not create a financial
                        disincentive to effective compliance;

                (2)     consider emphasizing monthly budgeting and strengthening
                        sponsor eligibility requirements;

                (3)     strengthen regulations to require that all participating child
                        care providers receive a specific minimum number of hours
                        in program and child care training each year;

                (4)     require that sponsors and State agencies verify at least
                        annually that participating homes receive the prescribed
                        training;

                (5)     require that State agency administrative reviews of sponsors
                        and homes include steps to identify recordkeeping
                        deficiencies and inflated meal claims, and steps to assess
                        the adequacy of sponsor monitoring of day care homes
                        (reviews should include unannounced home visits and
                        parent contacts); and

                (6)     modify FNS management evaluation coverage to include
                        specific steps to assess the effectiveness of State and
                        sponsor monitoring of homes (audits, homes visits,
                        administrative and other reviews, and meal claim edits).

                The full text of the report was provided to FNS with the official
                draft report.




USDA/OIG-A/27601-7-SF                                                        Page 40
                In response to this report, FNS proposed that its own CACFP task
                force would begin "to improve program integrity, streamline the
                operations of the CACFP in an attempt to make the program
                easier to operate at the State and local levels, and maintain a
                program which is fully open to all well-managed sponsoring
                organizations and the children they serve."

             b. The FNS Task Force Acknowledged Problems in July 1995
                but Recommendations Were Deferred Until the End of Year
                2000

                The CACFP task force was a collaborative State agency and FNS
                effort involving 14 individuals from 7 State agencies and 7 FNS
                regional offices. It convened in March 1995, and in July 1995 it
                made 33 recommendations to change the CACFP in the areas of
                program approval criteria, training and operations, and sponsor
                oversight. The task force also began developing program
                operational material for the family day care home program.

                The task force made recommendations to strengthen the CACFP.
                In our opinion, if these recommendations had been implemented,
                many sponsor abuses would have been prevented or detected.

                Among other things, the Task Force recommended that FNS:

                (1)     establish standards for the approval of new sponsoring
                        organizations, and standards for renewal of current
                        sponsoring organizations,

                (2)     strengthen the regulations for terminating sponsors and
                        allow the States some flexibility in selecting sponsors for
                        review, and

                (3)     provide performance standards and guidance for reviewing
                        sponsors' management plans, for evaluating the
                        composition of sponsors' boards of directors, for setting
                        salaries, and for ensuring that sponsors are competent and
                        that they receive training.




USDA/OIG-A/27601-7-SF                                                     Page 41
                The full text of the report was provided to FNS with the official
                draft report.

                In response to the Task Force report, on May 18, 1997, about 2
                years after the Task Force made its recommendations, FNS
                issued a Management Improvement Guide "to assist State
                agencies, sponsoring organizations, and providers in evaluating
                whether they are administering a quality child care feeding
                program." In the transmittal letter transmitting this guide to the
                State agencies, FNS stated that "State agencies, sponsors and
                providers may use these materials for self-evaluation,
                performance assessment and monitoring."

                Even after receiving a strong warning about problems in the
                CACFP and recommendations to correct these problems from its
                own Task Force, FNS only issued this optional "self-evaluation"
                guidance to State agencies and sponsors.

                In response to Task Force recommendations to establish sponsor
                standards and to strengthen the CACFP regulations, FNS did not
                initiate corrective action immediately but arrived at a long-range
                plan to address the task forces' concerns and recommendations.
                Final implementation of corrective actions in the long-range plan
                are not anticipated until the fourth quarter of fiscal year 2000,
                about 5 years after the recommendations were made.

                Most of the areas addressed by the FNS task force in 1995 turned
                out to be significant problem areas found during our audits and
                investigations of individual sponsors in Operation Kiddie Care. If
                the task force standards for approving and reviewing sponsors
                had been implemented and enforced, many of the issues involving
                the problem sponsors we reviewed would have been resolved.

             c. Operation Kiddie Care (Interim Report issued April 1998)

                In April 1998, the Inspector General issued an interim report on
                the results of OIG's audits and investigations of CACFP sponsors,
                to alert FNS to significant problems in the program.




USDA/OIG-A/27601-7-SF                                                    Page 42
                Operation Kiddie Care found significant weaknesses in program
                delivery. CACFP sponsors were found to be submitting false
                claims on a large scale. We reported that "for this $1.6 billion-a-
                year program that feeds an estimated 2.4 million children
                annually, the temptation to cheat was too great and the controls
                to prevent cheating were too weak."

                Serious program irregularities were found at 33 sponsors; 26
                investigations for program fraud were initiated; and 10 sponsors
                were terminated from the CACFP. These 10 sponsors were
                receiving $23 million annually in food and administrative funds.

                The Operation Kiddie Care report recommended that fundamental
                program changes be considered as part of the CACFP
                reauthorization process. Suggestions included:

                (1)     Determining if alternate methods of reimbursing sponsors
                        for administrative costs should be considered. The current
                        method of paying sponsors based on the number of homes
                        they administer creates a disincentive to proper program
                        management.

                (2)     Restricting providers in their ability to change sponsorships.
                        Providers can now readily change to sponsors that do not
                        enforce the program requirements.

                (3)     Seeking legislation to clarify reimbursement of
                        administrative costs to sponsors of day care centers. The
                        law should be made explicit for sponsors of day care
                        centers. The current reimbursement methodology of
                        allowing sponsors to take a high percentage of the food
                        reimbursement creates an opportunity for sponsors to abuse
                        the program.

                (4)     Clarifying legislation to terminate sponsors from program
                        participation.

                The full text of the report was provided to FNS with the official
                draft report.




USDA/OIG-A/27601-7-SF                                                        Page 43
                After we issued this report FNS reconvened the 1995 "Integrity"
                CACFP Task Force. Based on its first meeting in February 1999,
                the Task Force set forth proposed areas for followup to improve
                the management of the CACFP.

             d. FNS has not Acted on Management Alerts

                During the course of this Presidential Initiative, we have issued a
                series of management alerts notifying the FNS National Office of
                deficiencies which should have been corrected as soon as
                possible. As part of the audit process, we issue management
                alerts to notify agency officials of conditions we have found which
                warrant immediate attention. Agency managers are required by
                Departmental Regulations (DR 1720-1) to take prompt action on
                potential problems or significant weaknesses when reported to the
                agency before an audit report is issued.

                Although FNS would usually respond that it would act on our
                recommendations, we found during our December 1998 work at
                the FNS National Office, that corrective actions were generally not
                taken. A summary of these management alerts are presented
                here. The three management alerts which, in our opinion, need
                to be addressed as part of this audit report (1, 2, and 3 below) are
                presented as findings later in this report.

                1.      Management Alert Issued on June 4, 1997

                        In this management alert, we notified FNS that we found that
                        many child care providers claiming reimbursement for meals
                        served to their own children, based on their participation in
                        the Food Stamp Program or other welfare programs, had
                        underreported their child care income to the State Food
                        Stamp agency. By not reporting their income, these
                        providers may have received undeserved Food Stamp and
                        CACFP benefits.

                        On July 21, 1997, FNS informed us that they would act on
                        this problem. As of December 1998, about 18 months later,
                        no actions had been taken.




USDA/OIG-A/27601-7-SF                                                       Page 44
                2.      Management Alert Issued on December 1, 1997

                        In this management alert, we notified FNS that some States
                        allowed sponsors of independent day care centers to retain
                        a portion of the centers' food reimbursement as a means of
                        recovering the cost of administering the centers'
                        participation in the CACFP. FNS permitted this practice but
                        offered no guidance on the amount of money that may be
                        taken. In our opinion, this practice was unfair to centers,
                        reduced funds intended to feed children, and created an
                        environment that encouraged fraud and abuse in the
                        CACFP. In the management alert we recommended that
                        FNS establish a realistic rate for sponsors of day care
                        centers, and to notify all centers that they did not have to
                        enter into these arrangements with sponsors.

                        In its response to this management alert, dated December
                        19, 1997, FNS disagreed with setting a rate for sponsors of
                        centers but stated that they would act on the other
                        recommendations. On April 20, 1998, about 5 months after
                        the management alert was issued, FNS notified its regions
                        that OIG had reported "what they perceive to be a problem
                        in the CACFP" and instructed their regions to "request that
                        all State agencies which administer the CACFP advise
                        sponsored centers that they have the option of becoming an
                        independent center." The FNS National Office also stated
                        that "we are considering a policy memorandum to address
                        OIG concerns in the area of administrative costs."

                        As of December 1998, 1 year after the management alert
                        was issued, except for requesting that all States notify their
                        sponsored child care centers that they had the option to
                        become independent centers which contract directly with the
                        State agency, no further action was taken to correct this
                        serious deficiency. FNS did not address the problem of
                        administrative costs paid to sponsors of day care centers.




USDA/OIG-A/27601-7-SF                                                        Page 45
                3.      Management Alert Issued on July 24, 1998

                        In this management alert, we notified FNS that California
                        was attempting to recover overpayments to sponsors by
                        using a method which penalized providers who were not
                        responsible for the overpayments, and which may directly
                        harm children in their care. We found that this situation may
                        have had national implications and needed immediate
                        corrective action.

                        On August 13, 1998, FNS stated that they would issue
                        guidance to all of their regional offices within 60 days on
                        appropriate recovery procedures.

                        As of December 1998, 5 months after the management alert
                        was issued, FNS had not acted on this alert.

                4.      Management Alert Issued on September 16, 1998

                        In this management alert, we notified FNS that the agency
                        needed to implement regulations to prohibit the commingling
                        of administrative funds and provider food funds and prohibit
                        sponsors from commingling funds between the CACFP
                        accounts and other funds of organizations affiliated with the
                        sponsor. These recommendations were made because we
                        found that one of the largest sponsors in the country was
                        shifting funds between the various CACFP and non-CACFP
                        accounts to cover the fact the it was running a deficit in the
                        CACFP program, which indicates a serious deficiency which
                        if not corrected could ultimately result in providers not
                        receiving their food reimbursements.

                        On October 13, 1998, FNS stated that "we appreciate the
                        intent of the recommendations, however we believe the
                        current CACFP regulations provide sufficient authority to
                        address the improper use of administrative and meal service
                        (provider) funds."

                        Shifting money between program and nonprogram accounts
                        is a method used by sponsors to hide the fact that they are
                        not paying the providers and the children they are trying to
                        feed (see Audit Report 27010-11-SF).


USDA/OIG-A/27601-7-SF                                                        Page 46
             e. As of February 1999, Operation Kiddie Care Continued To
                Disclose More Cases of Program Abuse

                After the release of the Interim Operation Kiddie Care Report, OIG
                continued to find widespread abuse and fraud in this program. As
                of February 19, 1999, we had found the following:

                ! Whereas 33 sponsors had been identified in April 1998 with
                  serious program irregularities, there are now 37; whereas 26
                  investigations had been initiated for program fraud, there are
                  now 31.

                ! The number of sponsors terminated from the CACFP has also
                  risen. By April 1998, 10 sponsors receiving $23 million
                  annually in food and administrative funds had been terminated;
                  to date, 16 sponsors receiving approximately $34.6 million
                  annually have been terminated.

                ! The number of individuals who had been indicted or named in
                  criminal information documents has risen from 13 in April 1998
                  to 44. The number of individuals who pled guilty or were
                  convicted has risen from 9 to 28; and the number who were
                  sentenced for illegal activities has risen from 4 to 26.

             Operation Kiddie Care has shown that the CACFP is highly
             susceptible to fraud, waste, and abuse. The recommendations made
             below address the problems we found during our audits, including
             lack of standards for approving and renewing sponsorships. Many of
             these recommendations were made previously in the reports we
             discussed, but FNS did not take the opportunity to act on them.

             Recommendation number 2h is a restatement of a recommendation
             made in the 1995 OIG audit report. At that time, OIG accepted FNS'
             management decision not to explore alternative systems of
             administrative cost reimbursement for sponsors of day care homes.
             We are restating this recommendation in this report because
             Operation Kiddie Care has shown that this method of paying
             administrative costs for sponsors of day care homes is a disincentive
             to proper program administration and needs to be changed.




USDA/OIG-A/27601-7-SF                                                    Page 47
   RECOMMENDATION NO. 2a


             Revise regulations to include standards for approving and renewing
             sponsors. Sponsors should have business experience, adequate
             management plans and budgets, demonstrate financial capability and
             a standard of ethics, and undergo a criminal background check.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "A proposed integrity rule to be published in the Fall 1999."

             OIG Position

             In order to reach management decision, please provide specific
             details from the published proposed rule which address this
             recommendation and the proposed issuance date for the final rule.


 RECOMMENDATION NO. 2b


             Revise regulations to include standards for terminating sponsors.
             Sponsors should face termination for engaging in inappropriate
             business practices, falsifying program information, and concealing a
             criminal background.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "A proposed integrity rule to be published in the Fall 1999."




USDA/OIG-A/27601-7-SF                                                    Page 48
             OIG Position

             In order to reach management decision, please provide specific
             details from the published proposed rule which address this
             recommendation and the proposed issuance date for the final rule.


 RECOMMENDATION NO. 2c


             Provide guidance to State agencies on the composition of governing
             boards of sponsors, and clarify the required oversight and
             independence of these boards.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated

                Addressed in the Agency's Management Improvement Guidance
                and in a management assessment guide (attached) which was
                distributed to SAs in May 1999. Developing a Board of Directors
                Fact Sheet which is to be completed and distributed in September
                1999.

             OIG Position

             The Management Improvement Guidance is an optional, self-
             assessment guide for State agencies, sponsors and providers and
             will not remedy the causes of the problems disclosed in this finding.
             In order to reach management decision, please provide a specific
             plan of action to be taken on this recommendation and the proposed
             completion date.




USDA/OIG-A/27601-7-SF                                                    Page 49
 RECOMMENDATION NO. 2d


             Provide State agencies guidance on how to set administrative salary
             guidelines for employees of CACFP sponsors that are consistent with
             local salary structures.


             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "FNS will issue memorandum to SAs in the Fall 1999."

             OIG Position

             In order to reach management decision, please provide specific
             details of the directions to be provided in the memorandum to the
             State agencies in the Fall of 1999.


 RECOMMENDATION NO. 2e


             Allow State agencies to devote up to 20 percent of the required
             review time within a review cycle to additional reviews of new and
             problem sponsors. (For example, within a review cycle, if a State
             uses 100 staff days to accomplish CACFP reviews, it may shift 20 of
             these days to problem or new sponsors by diminishing review days
             used for other sponsors.)

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "A proposed integrity rule to be published in the Fall 1999."




USDA/OIG-A/27601-7-SF                                                    Page 50
             OIG Position

             In order to reach management decision, please provide specific
             details from the published proposed rule which address this
             recommendation and the proposed issuance date for the final rule

             .


 RECOMMENDATION NO. 2f


             Expand the authorized actions against "seriously deficient" sponsors:
             (1) to allow for the immediate termination of a sponsor charged by
             another government agency (Federal, State, or local) with having
             placed the health or safety of a child in jeopardy; (2) to include
             sponsors whose agreement lapses prior to termination; and (3) to
             require automatic termination or suspension of a sponsor for fraud.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "A proposed integrity rule to be published in the Fall 1999."

             OIG Position

             In order to reach management decision, please provide specific
             details from the published proposed rule which address this
             recommendation and the proposed issuance date for the final rule.


 RECOMMENDATION NO. 2g


             Establish required review coverage and standardized reporting for
             sponsor monitoring of providers to include: (1) assessing whether
             enrollment, meal count, and menu records are current and complete,
             and (2) reconciling observed attendance with enrollment data and
             with the subsequent meal count that is claimed.


USDA/OIG-A/27601-7-SF                                                    Page 51
             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated

                A proposed integrity rule to be published in the Fall 1999.
                Addressed in the CACFP management standards for family day
                care home sponsoring organizations which were published and
                distributed to SAs in May 1997.

             OIG Position

             In order to reach management decision, please provide specific
             details from the published proposed rule which address this
             recommendation and the proposed issuance date for the final rule.


 RECOMMENDATION NO. 2h

             Establish an alternative system of administrative cost reimbursement
             so that it is not directly based on day care home numbers and do not
             create a financial disincentive to compliance enforcement.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "In the Fall 1999, a task force will be assembled to study
             alternative methods of delivering a meal program."

             OIG Position

             The OIG audit of the CACFP completed in March 1995 recommended
             that FNS explore alternative systems of administrative cost
             reimbursement so that reimbursements are not directly based on the
             number of homes; thus eliminating the financial disincentive to
             effective compliance.



USDA/OIG-A/27601-7-SF                                                    Page 52
             Both in the 1995 audit and in our current 1999 audit, we found that
             because sponsors were paid administrative costs based on the
             number of homes they sponsored, the sponsors were actually
             competing against one another for homes. The more homes a
             sponsor had, the more administrative costs they could claim.

             This competition for homes, and the ease by which homes can switch
             sponsors, creates a situation where sponsors are reluctant to enforce
             the program requirements at the provider level. Sponsors told us that
             the competition between sponsors created by this system has made
             it difficult for the sponsors to administer the program. This is a basic
             flaw in the design of the CACFP and needs to be corrected as soon
             as possible. We do not believe that it needs further study.

             In order to reach management decision, please provide a specific
             plan of action to be taken on this recommendation and the proposed
             completion date.


 RECOMMENDATION NO. 2i


             Strengthen the provider regulations to require that all participating
             providers must receive a specified minimum number of hours in
             program training each year and require State agencies to verify that
             providers received the prescribed training.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "A proposed integrity rule to be published in the Fall 1999."

             OIG Position

             In order to meet management decision, please provide specific
             details from the published proposed rule which address this
             recommendation and the proposed issuance date for the final rule.




USDA/OIG-A/27601-7-SF                                                       Page 53
 RECOMMENDATION NO. 2j


             Require that State agency administrative reviews of sponsors and day
             care homes include steps to identify recordkeeping deficiencies and
             inflated meal claims, and to assess the adequacy of sponsor
             monitoring of the homes. Reviews should include unannounced day
             care home visits and parent contacts.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated

                A proposed integrity rule to be published in the Fall 1999. Also,
                this was addressed in the CACFP management standards for
                family day care home sponsoring organizations which were
                published and distributed to SAs in May 1997.

             OIG Position

             In order to reach management decision, please provide specific
             details from the published proposed rule which address this
             recommendation and the proposed issuance date for the final rule.



  RECOMMENDATION NO. 2k


             Require owners and officers to be bonded so that program funds lost
             through their inappropriate actions will be restored to the program.
             If bonding requires a change in the current legislation, FNS should
             work with OMB to propose this legislative change.




USDA/OIG-A/27601-7-SF                                                    Page 54
                FNS Response

                In its written response to the draft report, dated July 27, 1999, FNS
                stated

                Office of Management and Budget (OMB) Circular A-102, Attachment
                B, prohibits Federal agencies from promulgating bonding
                requirements except when required by law. This issue will be
                analyzed as part of the larger study of Program re-design in the Fall
                1999.

                OIG Position

                We revised this recommendation to state that if legislation is required
                to implement a bonding requirement, FNS should work with OMB to
                implement such legislation. In order to prevent disreputable
                individuals from participating in the CACFP and to facilitate collecting
                identified overpayments, FNS should implement a bonding
                requirement of key sponsor officials. This good business practice has
                already been implemented by Texas and is being proposed by
                California. We see no reason to study this issue further.

                In order to reach management decision, please provide a specific
                plan of action to be taken on this recommendation and the proposed
                completion date.


                                        Some States allow sponsors of
          FINDING NO. 3                 independent child care centers to retain
                                        a portion of the centers' food
   EXCESSIVE ALLOWANCE FOR              reimbursements as a means of
  ADMINISTRATIVE COSTS OF DAY           recovering the cost of administering the
  CARE CENTERS IS AN INCENTIVE          centers' participation in the CACFP.
           FOR ABUSE                    FNS has permitted this practice but has
                                        offered no guidance on the amount of
                                        money that may be taken. In our
                                        opinion, this situation is unfair to centers,
             reduces funds intended to feed children, may not be provided for in
             the current CACFP regulations, and creates an environment that has
             encouraged fraud and abuse in the CACFP.

                The Code of Federal Regulations 7 CFR 226, paragraph 226.2
                (Definitions), states that "Child care centers may participate in the


USDA/OIG-A/27601-7-SF                                                          Page 55
             Program as independent centers or under the auspices of a
             sponsoring organization." These regulations are silent on how much,
             if any, can be paid to the sponsors for their costs of administering the
             CACFP to centers.

             FNS Instruction 796-2, Rev. 2, Financial Management - Child and
             Adult Care Food Program, paragraph IX F 2, states that "Sponsors of
             these centers may vary the amount of reimbursement paid to
             sponsoring facilities up to the maximum allowed or retain a portion of
             the rates for their administrative costs in accordance with the
             management plan approved by the State agency." We found that this
             obscure reference was interpreted differently by different States and
             we could find no other legal or regulatory basis for this practice.

             At least seven States allow sponsors to take a percentage of the food
             reimbursement intended for centers to cover the sponsors'
             administrative costs. For example, California allowed sponsors of
             centers to take up to 30 percent of the food reimbursement (as a
             result of our disclosures that many of these sponsors were defrauding
             the program, California dropped the allowed percentage to 15 percent
             effective October 1, 1998); Mississippi allows 10 to 20 percent;
             Alabama, 25 percent; Florida, 15 to 20 percent; Tennessee, 30
             percent; and New York, 30 percent. Some States do not allow
             sponsors to take any of the food money for administrative costs.

             The large amount of funds being retained by sponsors through this
             practice encourages abuse of the program. These funds must be
             used for program purposes. In California, for example, all six
             sponsors we audited that retained 30 percent of their centers' food
             reimbursements were found to be seriously deficient in program
             administration; five of the six were investigated (and in three of the
             five cases, nine individuals were sentenced) for program fraud; and,
             as of the date of this report, three of the six were terminated from the
             program.

             The amount of funds retained by sponsors also has no correlation
             with actual costs of administering the centers. For example, one
             sponsor's budget, approved by the State, allowed $289,901 for its
             administration of 355 homes and $301,321 for its administration of 38
             centers. On average, the sponsor received about $68 per month for
             each day care home provider and $661 per month for each center.
             Another sponsor's budget allowed for $1,112 per month for
             administrative expenses for each center. Neither of these sponsors


USDA/OIG-A/27601-7-SF                                                       Page 56
             had justified to the State agency why they needed so much more to
             administer the CACFP to child care centers versus the amounts
             budgeted for the day care homes.

             We could find no reason why sponsors should retain these large
             amounts of food reimbursement. The time needed to process the
             centers' claims for reimbursement may be slightly longer because
             centers have more children in attendance but the required time to
             administer all other program requirements (training, monitoring, etc.)
             is the same for both types of day care facilities.

             In both of the cases cited above, we found the sponsors to be
             diverting to unauthorized uses the funds made available through the
             30-percent calculation.

             Because of the amount of work and adverse conditions we found with
             sponsors retaining 30 percent of centers' food money, California
             decided that effective October 1, 1998, they would reduce the
             maximum allowable retention to 15 percent. As can be seen from the
             above example, 15 percent may still be too high, but we estimate that
             approximately in California $568,000 annually will now be available
             to feed children because of this change.

             On December 1, 1997, we issued a management alert notifying the
             FNS Administrator of this situation and recommended that FNS
             establish a realistic rate that sponsors can retain for administering the
             program to the centers. The rate should more closely equal what a
             sponsor is paid to administer the program for day care providers.

             FNS responded to this management alert on December 19, 1997, by
             stating:

                We do not believe that a National standard for administrative
                costs allowed could reasonably be applied to all sponsoring
                organizations. In addition, we believe implementing such a rate
                may be counterproductive. Establishing a rate to be used for all
                sponsoring organizations may actually increase the amount of
                administrative costs claimed since some sponsoring organizations
                currently take no administrative reimbursement for oversight of
                their centers, and in others, only minimal administrative
                reimbursement is claimed. By identifying permissible maximum
                rates of administrative reimbursement we might be encouraging
                such sponsors to begin or increase charges.


USDA/OIG-A/27601-7-SF                                                       Page 57
             The sponsors whom FNS believes are taking no food reimbursement
             usually either prepare the meals for the centers or have complete
             financial control over the centers, so any funds not spent on food
             would be retained by the sponsor anyway. Providing direction to
             sponsors of independent centers would not in any way effect these
             sponsors.

             In addition, FNS needs to determine if it is legal for sponsors to obtain
             reimbursement for administrative costs by retaining funds that are
             owed to centers for providing food to children. If the practice is legal,
             FNS needs to establish reasonable rates. All centers need to be
             notified that by participating with the State agency, they can save the
             administrative cost retained by the sponsor.


 RECOMMENDATION NO. 3a


             Determine from the OGC whether it is legal for sponsors to recover
             administrative costs by retaining a portion of the funds earned by
             centers providing food to children. If this practice is determined to be
             legal, and until the legal determination is made, implement
             Recommendations 3b, 3c, and 3d.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "FNS will seek legal opinion from the Office of General
             Counsel by the Summer 1999."

             OIG Position

             We accept management decision on this recommendation.


 RECOMMENDATION NO. 3b


             Notify all child care centers that participate under sponsors that they
             have the option to participate directly with the State agency.



USDA/OIG-A/27601-7-SF                                                       Page 58
             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated

                Completed. FNS issued guidance on April 20, 1998 to SAs
                instructing them to inform centers that they may participate as
                independent centers (as opposed to being sponsored) under a
                direct agreement with the SA. The were also informed to let
                centers know that if they chose to participate under a sponsoring
                organization, a portion of their food reimbursement may be
                retained by the sponsoring organization to cover administrative
                costs. FNS will have training from September 1999 to January
                2000.

             OIG Position

             We accept management decision on this recommendation.


 RECOMMENDATION NO. 3c


             Inform centers that if they choose to participate under the auspices
             of a sponsoring organization, the sponsoring organization may retain
             a portion of their food reimbursement to cover their administrative
             costs.



             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated

                Completed. FNS issued guidance on April 20, 1998 to SAs
                instructing them to inform centers that they may participate as
                independent centers (as opposed to being sponsored) under a
                direct agreement with the SA. The were also informed to let
                centers know that if they chose to participate under a sponsoring
                organization, a portion of their food reimbursement may be
                retained by the sponsoring organization to cover administrative


USDA/OIG-A/27601-7-SF                                                    Page 59
                costs. FNS will have training from September 1999 to January
                2000.

             OIG Position

             We accept management decision on this recommendation.



  RECOMMENDATION NO. 3d


             Establish a realistic rate that sponsors can retain for administering the
             program to the centers. The rate should more closely equal what a
             sponsor is paid to administer the program for day care providers.


             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated

                A proposed integrity rule, to be published in the Fall 1999,
                incorporates performance standards which address allowable
                cost.




             OIG Position

             As shown in the results of this audit, this is one of the most significant
             causes of fraud and mismanagement in the CACFP; the retention of
             food reimbursement by sponsors of child care centers for their
             administrative costs.

             In order to reach management decision, please provide specific
             details from the published proposed rule which address this
             recommendation and the proposed issuance date for the final rule.




USDA/OIG-A/27601-7-SF                                                        Page 60
 II.   SPONSORS AND STATES NEED FNS WRITTEN GUIDANCE
       FOR ADMINISTRATIVE ACTIVITIES


                                        In addition to the aforementioned cases
          FINDING NO. 4                 of fraud and program abuse, we found
                                        that sponsors and State agencies alike
                                        generally did not understand all that was
                                        required of the sponsors to administer
             the program. In our opinion, this is a cause of some of the serious
             deficiencies we found at the sponsors, and an overall weakness in
             the program. While not all of the sponsors we audited were
             committing program fraud, most of them were submitting questionable
             claims in one form or another.

             FNS needs to develop program administration regulations and issue
             a sponsors' handbook for administrative management of the CACFP.
             Currently, the guidance that exists is decentralized. It exists in a host
             of program regulations, FNS instructions, and Office of Management
             and Budget (OMB) Circulars. Included among the directives that
             control the program are 7 CFR, parts 226 and 3015; OMB Circulars
             A-87 and A-122; FNS Instruction 796-2, Financial Management -
             Child and Adult Care Food Program; and the National School Lunch
             Act (Public Law 102-518).

             Most of the problem sponsors we found during Operation Kiddie Care
             were in business solely because of the CACFP. They were usually
             small organizations with staffs consisting of a few officers, monitors,
             and administrative support personnel. Most of these sponsors were
             not following the ambiguous, decentralized Federal and State
             directives.

             Although FNS has developed very helpful CACFP program
             handbooks on nutrition and monitoring, it offers no similar handbook
             on administrative management. Sponsors need clear direction on the
             eligibility of administrative costs, such as expenses for travel, leased
             vehicles, employee benefits, office space, salary allocation, and
             training. Sponsors also need direction on the degree to which
             outside employment by key employees is compatible with adequate
             management of the program.



USDA/OIG-A/27601-7-SF                                                       Page 61
                       Following are examples of some of the administrative cost areas
                       where we found the regulations and guidance to be inadequate,
                       ambiguous or nonexistent.

                       Outside Employment

                       We could find no specific Federal regulations or guidance concerning
                       the outside employment of key sponsor employees. At best, these
                       regulations refer only to adequate staffing. The regulations state,
                       "Each institution shall provide adequate supervisory and operational
                       personnel for management and monitoring of the CACFP."3

                       Some States offer no clearer guidance. California, for example,
                       requires the sponsor to maintain an adequate staff to operate a
                       quality CACFP.4 This State also includes in its agreement with the
                       sponsor the requirement that the sponsor administer the CACFP from
                       an ongoing office site staffed by permanent administrative personnel.5
                       Neither Federal nor California State directives identify when outside
                       employment by sponsor employees may interfere with "adequate"
                       supervision.

                       We concluded that outside employment did interfere with the
                       operations of some sponsors.

                       -   At one sponsor, two of the three key employees had outside
                           employment or school responsibilities. The third employee was
                           also away from the office nearly 2 weeks out of every month while
                           conducting visits to homes and centers. For some periods, no
                           one was present in the office during normal child-care hours.

                           The deputy director, the highest ranking official of the sponsor,
                           worked full time at another government job. Based on her
                           schedule, the deputy director could only work 10 percent of her
                           normal work hours on the CACFP (unless she took leave from her
                           non-CACFP job). However, she charged approximately 136
                           hours per month to the CACFP. The deputy director stated that



  3
      7 CFR 226.15(d), dated January 1, 1995.
  4
   California Department of Education Day Care Home Sponsor Manual, Section 200, dated September
1995 (revised May 1997).
  5
      California Department of Education Form: CNFDD 2050 (revised June 1995).


USDA/OIG-A/27601-7-SF                                                                    Page 62
                 she worked most of these 136 hours during weekends and in the
                 evenings after her full-time job.

             -   For another sponsor, three key employees were engaged in
                 nonprogram activities at the same location used to carry out
                 CACFP functions. The executive director and the accountant
                 operated a bail bonds business from the sponsor's offices, and
                 only a small sign on the side of the building indicated it was in fact
                 a CACFP sponsor office.

                 Also, while carrying out CACFP functions, sponsor employees
                 presented themselves as income tax consultants and promoted
                 this and other services to providers and others through the
                 sponsor's publications.

             -   The executive director of a California sponsor was paid a salary
                 from the California CACFP program and had use of a vehicle, also
                 paid for by the California CACFP program, while residing and
                 working full-time for other enterprises in Wisconsin. We found no
                 evidence that the executive director was actively participating in
                 the day-to-day operations of the California sponsor.

             -   In Florida, the executive director and his wife (a former employee)
                 were paid a salary from the Florida CACFP program while residing
                 in North Carolina. The program also paid for the executive
                 director's travel expenses incurred between North Carolina and
                 Florida. At this time, we do not know if the executive director had
                 another job in North Carolina. However, we feel that it is
                 unreasonable to operate a sponsorship in one state, but reside in
                 another.

             FNS and State program officials have contended that current
             regulations do not preclude sponsor officials from holding other full-
             time jobs while also drawing a full-time salary from the CACFP.

             In our opinion, clear program guidance needs to be provided to
             States and sponsors concerning the issue of outside employment,
             reasonable workhours, and staffing the sponsors' offices to make
             sure that sponsors adequately service the providers.




USDA/OIG-A/27601-7-SF                                                        Page 63
             Government-Funded Vehicles

             FNS also needs to give clear direction on the use of Government-
             funded vehicles in the CACFP. In most cases we reviewed, sponsors
             who leased vehicles and claimed them in the CACFP, put the
             vehicles at the disposal of high-level sponsor employees, often for
             nonprogram purposes. The monitors who actually serviced the
             providers and would have the greatest need for leased vehicles did
             not use them.

             The requirement that best addresses this situation is OMB Circular A-
             122, "Cost Principles for Nonprofit Organizations." This rule states
             that a cost is allocable to a Federal award if it is incurred specifically
             for the award.

             For one sponsor, CACFP funds were used to pay for leased vehicles
             for both the program director and the assistant program director (a
             husband and wife team). The program director informed us that the
             vehicles in question were "perks." She stated that during the scope
             of our audit, the vehicles were exclusively used by the director and
             assistant director and kept at their personal residences.

             The program director added that although she knew she could
             prorate vehicle expenses between personal and business expenses,
             she elected not to do this because the vehicles were considered
             employee benefits (see the following section on employee benefits).
             She stated that the cars were readily available for monitoring visits,
             but she could not recall an occasion within the past 2 years when
             they were so used.

             Since the vehicles were used exclusively for personal purposes and
             not program purposes, we questioned almost $15,000 for all
             expenses associated with the vehicles.



             State representatives confirmed that vehicles leased by a sponsor
             should only be used for program purposes. They pointed out that the
             lease was disclosed in the budget even though in the above case, the
             budgeted items used for nonprogram purposes are not authorized
             expenditures.



USDA/OIG-A/27601-7-SF                                                        Page 64
             We also questioned the total lease payments for a vehicle used by
             the executive director of a sponsor located in California. In a meeting
             with the executive director, we confirmed that the vehicle was
             physically located in Wisconsin. Since the sponsor was making the
             payments for the vehicle, and the use of a vehicle was authorized by
             the State, the vehicle should have been used for program purposes
             in California.

             Travel Expenses

             The claiming of travel expenses is neither consistent nor reasonable.
             Some States require sponsors to follow State travel policy; other
             States allow sponsors to claim whatever they feel they are entitled to.

             In California, sponsors are allowed to travel within the State without
             following any policies. They are only required to ensure that the
             travel and expenditures are necessary and reasonable. However,
             there are no regulations that provide guidance as to what constitutes
             necessary and reasonable expenditures.

             For example, the program director of a California sponsor attended
             many roundtable meetings throughout the year. These round- table
             meetings were held in California every other month. Usually, only the
             director and the program administrator attended the roundtable
             meetings. However, for one roundtable meeting held in San
             Francisco, the sponsor sent five employees without obtaining
             approval. On another occasion in Atlanta, the program director
             along with the program administrator attended a national conference.
             Besides the fact that only one person was allowed by the State
             agency to attend this out-of-state conference, the two employees
             spent $120 on dinner one evening. This was considered allowable
             because there are no regulations on what is reasonable and no limits
             on what can be claimed.

             State agency personnel informed us that the travel policy the sponsor
             was following--claiming whatever it felt was reasonable and
             necessary--was a statewide policy. However, we could find no written
             State document that espoused this policy. The State personnel
             added that they had received no instruction from FNS telling them
             what travel policies should be followed. Since this is 100 percent
             federal funds, it costs the State agency nothing.




USDA/OIG-A/27601-7-SF                                                      Page 65
             We believe that FNS should ensure continuity and integrity in the
             program by requiring sponsors to follow prescribed travel policies.

             Benefits

             The payment of benefit packages for sponsor executives varied
             considerably. We found States that allowed sponsors to claim 100-
             percent of CACFP funding for their retirement and benefit packages,
             while other States only approved limited retirement packages through
             which the employee contributed a percentage of the benefit.

             OMB Circular A-122, "Cost Principles for Nonprofit Organizations,"
             states that "costs of the organization's pension plan which are
             incurred in accordance with the established policies of the
             organization are allowable, provided such policies meet the test of
             reasonableness."

             During our review of sponsors in one State, we found that the benefits
             provided by one sponsor to its key employees were excessive when
             compared to the benefits provided by seven other sponsors. The
             State agency provided us with the following schedule:

             Figure 5:     State Data Showing Disproportion of Employee
                           Benefits Among Sponsors

               Sponso    Budgeted   Budgeted Admin.    Budgeted     Benefits % of
                r No.     No. of       Labor &         Employee     Labor/Taxes
                          Homes     Employer Taxes      Benefits

               1            1,050          339,464       91,200               27
               2            1,050          369,984       42,852               12
               3            1,600          521,564      110,940               21
               4              430          226,147       16,764                 7
               5              325          182,291       16,808                 9
               6              300          166,370         5,796                3
               7              284          124,349         6,782                5
               8              198            90,674      13,483               15




USDA/OIG-A/27601-7-SF                                                     Page 66
                      As the schedule shows, sponsor no. 1, with 1,050 homes under its
                      sponsorship, paid out employee benefits that totaled over a quarter
                      of the cost of its labor and payroll taxes. The sponsor with the most
                      homes under its sponsorship, 1,600, paid out 21 percent of the same
                      costs, while the sponsor with the same number of homes as sponsor
                      no. 1 paid out employee benefits totaling 12 percent of these costs.


                      To ensure continuity and integrity in the program, FNS should require
                      sponsors to develop consistent employee benefit packages.

                      Training

                      Federal regulations for the CACFP state that prior to beginning
                      program operations, the staffs of all child care and adult day care
                      facilities must be trained in program duties. After this initial training,
                      sponsors are required to provide training sessions not less frequently
                      than annually.6

                      In several of our reviews we found variances in the sponsor's
                      interpretation of what constitutes annual training. Some sponsors
                      have noted that although current regulations require sponsors to offer
                      annual training, they do not require providers to actually attend it.
                      We found that while some sponsors presented as many as four
                      training sessions a year, in locations convenient to the providers,
                      other sponsors presented their training through mail courses and
                      newsletters.    In these last cases, little effort was made to
                      accommodate provider questions.

                      We also found training conferences whose benefits appeared
                      questionable in light of the probable costs to the program. One
                      sponsor, who used the Los Angeles Arboretum for its training
                      conference, announced the conference as an "educational festival."
                      We learned that the training session consisted mainly of vendor
                      booths selling children's products and entertainment provided by local
                      child musicians, dancers, and martial arts demonstrators. The
                      session's master of ceremonies was Mr. Happy Bo Bappy the Clown.




 6
     7 CFR 226.16 (d)(2)(3), dated January 1, 1995.


USDA/OIG-A/27601-7-SF                                                                 Page 67
                      We concluded that FNS needs to provide guidance to sponsors on
                      the content of annual training and the methods of delivery that will be
                      acceptable.

                      Ratio of Monitors to Providers

                      Our current work has also shown that FNS needs to establish a
                      required ratio of monitors to day care providers. There is no
                      requirement that the sponsor employ a number of monitors
                      commensurate with the number of homes it sponsors. Consequently,
                      a sponsor has a financial incentive to hire as few monitors as
                      possible. With this high ratio of homes to monitors, the resulting
                      reviews of providers are inadequate. Our unannounced visits to over
                      3,200 providers and centers nationwide has shown that, generally,
                      providers and centers are not complying with program requirements
                      (see exhibit D).

                      For example, the sponsor Angela's Angels Preschool, Inc. (Audit
                      Report 27010-2-SF) did not adequately monitor operations in its
                      homes. This occurred because the sponsor did not have enough staff
                      to perform all required provider reviews in a sufficiently thorough
                      manner.

                      As part of Angela's agreement with the State agency, sponsors
                      accept final administrative and financial responsibility for program
                      operations in their homes. To meet this responsibility, sponsors are
                      required to conduct onsite monitoring reviews. These reviews assess
                      compliance with meal patterns (mandatory meal components),
                      recordkeeping, and other program requirements.7

                      Each home must be visited at least three times a year, with not more
                      that 6 months between visits. Effective monitoring is an essential
                      aspect of program oversight. It helps ensure that claims are correct
                      by making sure providers keep the records they need to prepare
                      accurate claims.

                      According to Angela's Angels' records, the sponsor completed 522
                      reviews of 200 providers during fiscal year 1995. According to the
                      sponsor's records, 96 percent of these reviews were performed by



 7
     CFR 226.16 (d)(4)(i), dated January 1, 1995.


USDA/OIG-A/27601-7-SF                                                               Page 68
             one monitor, a part-time employee working only about 600 hours
             during the year.

             We concluded that the reviews that were performed were not
             sufficiently thorough to identify deficiencies in providers' operations:
             the sponsor did not document a single deficiency in any of its reviews.
             We found this same condition at most of the sponsors we reviewed;
             the sponsors' monitors seldom found the problems that our reviewers
             found.

             We also found that the problem employees at the sponsors are
             usually not the monitors and administrative personnel, but the higher
             level employees--directors, assistant directors, etc. These employees
             have been able to divert funds for their own personal use because
             there is no requirement that they spend it on anyone else, such as
             their monitors.




  RECOMMENDATION NO. 4a


             Issue regulations that: (1) define the level of outside employment that
             will not affect the adequacy of sponsor staffing, and (2) define the
             content of annual provider training and the acceptable methods of
             delivery.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated

                4a(1) FNS does not believe that this issue can be framed in terms
                of regulatory requirements, except that which already exists
                regarding the necessity of adequate staffing to perform required
                Program responsibilities. Will be addressed in guidance in the
                Fall 1999.

                4a(2) A proposed integrity rule to be published in the Fall 1999.


USDA/OIG-A/27601-7-SF                                                       Page 69
             OIG Position

             4a(1) In order to reach management decision, please provide a
             specific plan of action to be taken on this recommendation and the
             proposed completion date.

             4a(2) In order to reach management decision, please provide
             specific details from the published proposed rule which address this
             recommendation and the proposed issuance date for the final rule.




 RECOMMENDATION NO. 4b


             Develop and distribute a sponsors' handbook for administrative
             management of the CACFP that incorporates all Federal regulations
             controlling sponsorship of the program and that identifies the costs
             that are allowable for travel, car leasing, and employee benefit
             packages.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "FNS will consolidate and update existing Program guidance
             in the Winter 2000."

             OIG Position

             We accept management decision on this recommendation.




USDA/OIG-A/27601-7-SF                                                    Page 70
 RECOMMENDATION NO. 4c


             Establish a required ratio of monitors to homes or increase the
             number of annual visits which must be made to homes and centers.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "A proposed integrity rule to be published in the Fall 1999."

             OIG Position

             As shown in this audit report lack of effective monitoring of providers
             and centers is pervasive in the CACFP. FNS needs to decrease the
             number of homes and centers monitors are required to visit; by
             requiring sponsors to hire more monitors or by increasing the
             required visits to the homes and centers which would ultimately have
             the same effect.

             In order to reach management decision, please provide specific
             details from the published proposed rule which address this
             recommendation and the proposed issuance date for the final rule.




USDA/OIG-A/27601-7-SF                                                      Page 71
 III.   CACFP PROVIDERS DO NOT REPORT ALL CHILD CARE
        INCOME WHEN APPLYING FOR FOOD STAMPS AND CACFP
        ASSISTANCE


                                        Many child care providers claiming
         FINDING NO. 5                  reimbursement for meals served to their
                                        own children, based on their participation
                                        in the Food Stamp Program (FSP) or
                                        other welfare programs, underreported
            their child care income to the State FSP agency. By not fully
            reporting their income, these providers may have received more FSP
            benefits than they were entitled to, or they may have been ineligible
            for any FSP benefits. In the latter case, the providers would also be
            ineligible to claim meals served to their own children under the
            CACFP. (We reported this issue to FNS management in a June 4,
            1997, management alert.)

              According to 7 CFR 226.15, providers may claim reimbursement for
              meals served to their own children if: (1) the household is receiving
              welfare benefits, such as FSP benefits, (2) household income does
              not exceed specified levels, or (3) the enrolled child is a foster child.
              To be determined eligible, a provider completes an "income eligibility
              statement," which must be reviewed and approved by the CACFP
              sponsor under which the provider participates. If claiming eligibility
              based on FSP participation, the provider reports his or her FSP case
              number on the statement. If claiming eligibility based on household
              income, the provider reports the names of household members and
              the amounts and sources of their income. In neither case is the
              sponsor required to verify the information reported.

              For food stamp purposes, providers are considered self-employed,
              and the income they receive from parents for providing day care for
              their children, less their child care expenses, should be reported as
              self-employment income. Eligibility for FSP benefits and the amount
              of the benefits depend in part on the amount of income reported by
              the participant.

              Our audit disclosed that the controls over CACFP providers who
              receive benefits simultaneously from both the CACFP and the FSP
              are inadequate. State FSP agencies are unaware of providers' day


USDA/OIG-A/27601-7-SF                                                        Page 72
             care income unless the providers have reported this income
             themselves. State FSP agencies may be unaware of the providers
             participation in the CACFP, and the possibility that they are receiving
             child care income, because this information is not reported to them by
             either sponsors or the State CACFP agency.

             As part of our CACFP audit, we selected a sample of 24 providers,
             participating under 3 sponsors in 2 States, who had applied to claim
             meals served to their own children based on their participation in the
             FSP. We contacted the State FSP agency to verify their participation
             in the FSP. While we found that generally these providers were
             participating in the FSP, we also found that at least 14 of them either
             underreported their day care income to the State FSP agency or did
             not report it at all. If these providers were to report all of their income,
             either they would not qualify for the amount of benefits they were
             receiving, or they would be ineligible to participate in the FSP. If they
             were ineligible for the FSP, they would not be eligible to claim meals
             served to their own children.

             We provided the State FSP agencies details of these 14 cases of
             potential FSP fraud. Officials from both States indicated that they will
             pursue potential FSP fraud in these cases.

             We also question whether individuals who do not report their financial
             situations accurately in order to gain eligibility should be allowed to
             participate in another FNS program.

             As far as we could determine, there were no records available, except
             at each individual sponsor, to determine the potential extent of this
             problem. Based on our review, we believe that the problem may be
             widespread. Its impact will be exacerbated under the provisions of
             the Personal Responsibility and Work Opportunity Reconciliation Act
             of 1996, as amended. Under this act, providers will be categorized
             as either "tier 1" or "tier 2" providers. Tier 1 providers will be eligible
             to claim maximum meal reimbursement for all children, including their
             own, under their care. However, for tier 2 providers the rate of
             reimbursement will be individually determined for each child and may
             be lower than for tier 1.

             Under tiering, all children in a home of a provider who is participating
             in the FSP would be eligible for tier 1 including the provider's
             children. Because tiering can affect all children under a provider's
             care, it will have a significant impact on future program costs. While


USDA/OIG-A/27601-7-SF                                                          Page 73
             under the new rules, sponsors must verify income of tier 1 providers
             who claim eligibility based on household income, there is no
             verification requirement if the provider claims eligibility based on FSP
             participation.

             In the management alert, we recommended that:

                1. FNS require all sponsors to provide to their State CACFP
                   agencies, and to FNS for monitoring purposes, a listing of all
                   of their providers claiming CACFP eligibility for their children
                   based on FSP participation. This information should be
                   readily available from the sponsors. State agencies should
                   then be required to provide this information to their State FSP
                   agency.

                2. The State FSP agency should be required to verify all day care
                   income that is or is not reported for food stamp eligibility. This
                   could be part of the normal FSP verification process.

             In its response to Recommendation No. 1, FNS stated that it would
             prefer to make a listing of all CACFP providers available to food
             stamp offices for their use in verifying a participant's income.
             Currently, each sponsor submits to its State agency a management
             plan which includes a list of all the sponsor's providers currently
             participating in the CACFP. FNS stated it would encourage all
             CACFP State agencies to share these lists with food stamp State
             agencies and local certification offices. However, FNS stated it would
             not be able to require these lists to be shared without proposing a
             regulatory change to 7 CFR Part 226.

             In response to Recommendation No. 2, FNS stated that the food
             stamp State agency will be provided with a listing of all child care
             providers currently participating in the CACFP. FNS will issue
             guidance explaining that the listing is to be used as a means of
             ensuring that all income is reported to the food stamp office by these
             child care providers. FNS emphasized that verification of all gross
             nonexempt income was currently required.

             As stated, this finding is significant because providers were found to
             be receiving excessive benefits in both the FSP and the CACFP
             because they were not accurately reporting their child care income.
             If regulatory changes are needed for FNS to require the sharing of



USDA/OIG-A/27601-7-SF                                                      Page 74
             income information between two of its own programs, then FNS
             should propose a change to the program regulations.



 RECOMMENDATION NO. 5a


             Propose regulatory changes to require all sponsors to provide to their
             State CACFP agencies, and to FNS for monitoring purposes, a listing
             of all their providers claiming CACFP eligibility for their children
             based on FSP participation. This information should be readily
             available from the sponsors. State agencies should then be required
             to provide this information to their State FSP agency.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated

                This recommendation will require additional discussion with OIG
                and with Food Stamp Program administrators, and my require
                legislative action as well.

             OIG Position

             In order to reach management decision, please provide a specific
             plan of action to be taken on this recommendation and the proposed
             completion date.




 RECOMMENDATION NO. 5b


             Require the State FSP agency to verify all day care income that is or
             is not reported for food stamp eligibility. This could be part of the
             normal FSP verification process.




USDA/OIG-A/27601-7-SF                                                     Page 75
             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated

                This recommendation will require additional discussion with OIG
                and with Food Stamp Program administrators, and my require
                legislative action as well.

             OIG Position

             In order to reach management decision, please provide a specific
             plan of action to be taken on this recommendation and the proposed
             completion date.




USDA/OIG-A/27601-7-SF                                                    Page 76
 IV.   SOME METHODS OF RECOVERING OVERPAYMENTS
       COULD RESULT IN UNFAIR REDUCTIONS IN
       REIMBURSEMENTS


                                         At least one State agency had a practice
          FINDING NO. 6                  of recovering overpayments and
                                         administrative claims from sponsors
                                         using a process which may have
                                         adversely affected the sponsors'
             providers and day care centers and the children they served. (We
             reported this in a July 24, 1998, management alert to the FNS
             Administrator and notified him that the practice may have national
             implications.)

             In California, the California Department of Education (CDE) collects
             overpayments due from sponsors by offsetting the amounts owed
             against the sponsors' claims for reimbursement. The amounts owed
             are usually the results of ineligible administrative or meal claims
             identified through an audit or review, or because of outstanding
             program advances. While this practice may seem logical, the
             amounts being offset are the food reimbursements due to centers and
             providers who in all likelihood were not responsible for the
             overpayments or advances. Offsets like this may directly harm the
             children in the program.

             For example, if CDE auditors found that a sponsor did not have
             records supporting administrative or food payments that were made
             for a previous claim period, they calculated an overpayment and
             reduced the sponsor's next claim. If the sponsor did not receive the
             next claim, or only received a portion of it, the sponsor did not have
             funds to pay the food claims of its centers and providers. There was
             usually no direct correlation between who caused the overpayment
             and who made the repayment.

             A situation like this was reported to the FNS Western Regional
             Administrator in a management alert dated October 29, 1997. In that
             case, CDE was collecting advances to a sponsor, the Community
             Business Improvement Association, Inc., of Pasadena, California, by
             offsetting current claims for reimbursement.



USDA/OIG-A/27601-7-SF                                                     Page 77
             We believe this practice may be taking place in other States.
             Program regulations do not appear to directly address the issue of
             how overpayments and advances should be collected. Title 7 CFR
             226.7 empowers the State agencies to establish procedures to
             recover outstanding advances. Title 7 CFR 226.8 states that a State
             agency shall deduct overpayments from unpaid claims for
             reimbursement, but the regulation does not specifically say how this
             should be done.

             Another example was disclosed during our audit of the defunct
             sponsor, Aladdin Child Care Services, Inc., (Aladdin) of Inglewood,
             California. This sponsor was selected for audit because it had
             withdrawn from the CACFP, effective September 30, 1997, while still
             owing many of its day care centers substantial amounts of program
             funds. When the sponsor withdrew, it still owed an August payment
             of $34,383 to its providers and centers.

             We found that CDE retained the August 1997 payment to recover part
             of a $208,160 overpayment that had been identified during a CDE
             audit of the years 1994, 1995, and 1996. We also found that during
             the period March 1996 through December 1997, CDE had offset
             another $83,889 from Aladdin to recover a separate overpayment
             identified during an earlier program review. The total amount of
             offsets against this sponsor was $118,271.49.

             Our primary concern with this practice is that CDE takes the food
             funds which are owed to all providers and child care centers to settle
             the debts owed by the sponsor, without determining who actually
             owes the debts. As a result, providers are not reimbursed for costs
             incurred for participating in the CACFP and eligible children could be
             adversely affected.

             As is evident from the Aladdin case, CDE recovered overpayments
             identified as far back as 1994 from payments due to providers and
             centers in 1997. We found no effort on the part of CDE to trace the
             overpayments to who actually caused the problem--specific providers
             and centers, or the sponsor itself.

             We understand CDE's desire to recover funds owed by Aladdin.
             However, we question the method used by CDE to recover these
             funds. We believe that if the overpayment occurred because the
             sponsor claimed ineligible administrative costs, then the recovery
             should come directly from the sponsor's administrative funds.


USDA/OIG-A/27601-7-SF                                                     Page 78
             Similarly, if any particular provider or center was at fault, then the
             recovery should come from that particular provider or center. The
             current method of a blanket offset of future reimbursements harms
             legitimate providers and centers and the children under their care.

             In our management alert, we made the following recommendations to
             the FNS National Office:

                1. Issue guidance to CDE so that the recovery of ineligible
                   program funds from sponsors comes from the entities which
                   are directly responsible for the ineligible amounts being
                   claimed. Ineligible provider payments should come from the
                   providers at fault. Ineligible sponsor payments should come
                   from the sponsor.

                2. Ask other States how they collect CACFP claims against
                   sponsors/providers, and issue the same guidance to these
                   States, if necessary.

             In response to this management alert, the FNS Acting Administrator
             stated that FNS would issue guidance to Regional offices and State
             agencies on appropriate recovery procedures for debts arising from
             unallowable operating and/or administrative charges to the CACFP.



    RECOMMENDATION NO. 6


             Issue guidance so that the recovery of ineligible program funds from
             sponsors comes from the entities which are directly responsible for
             the ineligible amounts being claimed. Ineligible provider payments
             should come from the providers at fault. Ineligible sponsor payments
             should come from the sponsor.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated

                FNS will continue through the Winter 1999 to explore ways of
                dealing with this concern with OIG, OGC, and State agency
                administrators.


USDA/OIG-A/27601-7-SF                                                     Page 79
             OIG Position

             In order to reach management decision, please provide a specific
             plan of action to be taken on this recommendation and the proposed
             completion date.




USDA/OIG-A/27601-7-SF                                                 Page 80
 V. FNS SHOULD RAISE THE VISIBILITY OF THE CACFP


                                        Parents of children in day care could be
         FINDING NO. 7                  used as an effective control to report on
                                        the status of the CACFP. FNS should
                                        raise the visibility of the program so that
                                        parents, who may be physically at the
            provider homes and centers on a daily basis, are aware of the
            nutritional standards that meals provided there should meet. In our
            opinion, FNS cannot rely solely on sponsor oversight given the extent
            of problems we have found with it.

              We have found that parents of children in day care may be unaware
              that the meals served to their children are being subsidized under the
              CACFP and as such, that these meals must meet certain nutritional
              standards. In fact, OIG employees who were working on the various
              CACFP audits and who had children in day care were often unaware
              that their own children were being served CACFP-meals.

              While we have seen some indication that sponsors may be notifying
              parents, either through the application process or through the tiering
              determination, that their children are participating in the CACFP,
              some type of notification at the providers' home or child care center
              would be a good reminder. This reminder would notify parents that
              CACFP-qualified meals are being served. We believe that FNS
              should create signs or posters for each of the approximately 227,000
              providers and centers that would encourage parental input. The
              posters might say, for example:

                 Meals served to your children at this day care facility are being
                 subsidized by the United States Department of Agriculture under
                 the Child and Adult Care Food Program and, as such, must meet
                 certain nutritional requirements. If you have any concerns about
                 the meals served to your children or questions about this program,
                 please call (State agency or FNS).


              Providers and Child Care Centers are required to post their licenses
              to operate their day care facilities and these licenses stipulate any
              licensing restrictions. It is not unreasonable to provide these same
              facilities with a CACFP sign or poster and require that it be


USDA/OIG-A/27601-7-SF                                                      Page 81
             prominently displayed. A well designed poster would also help FNS
             meet one of its primary goals of promoting good nutrition.

             Exhibit D shows the results of over 3,200 unannounced visits we
             made to day care providers and centers nationwide. As shown, much
             more needs to be done to improve the monitoring and training of
             providers and centers serving children and adults eating USDA-
             funded meals while in day care. One way to improve monitoring is to
             use the oversight of the parents. If the parents are aware that their
             children are to be served nutritious meals according to USDA
             guidelines and have a method available to report any concerns they
             might have, we believe that such additional oversight could prove
             effective in assuring program requirements are met.



     RECOMMENDATION NO. 7


             Instruct the State agencies to provide some mechanism to inform
             parents of the participation of their day care providers in the CACFP
             and encourage their awareness of the activities of those providers.

             FNS Response

             In its written response to the draft report, dated July 27, 1999, FNS
             stated, "FNS will address in Program guidance in the Fall 1999."

             OIG Position

             In order to reach management decision, please provide a specific
             plan of action to be taken on this recommendation and the proposed
             completion date.




USDA/OIG-A/27601-7-SF                                                    Page 82
EXHIBIT A - ANNUAL FUNDING FOR TERMINATED
            SPONSORS
                   State   Sponsor No.    Annual Funding
      California
                           1                         $ 721,344
                           2                          1,536,601
                           3                          3,115,319
                           4                          4,582,364
                           5                          7,596,143
                                                    $17,551,771
      Florida
                           6                               850,336
      Idaho
                           7                                54,215
      Louisiana
                           8                               736,278
      Michigan
                           9                          5,619,904
      Ohio
                           10                         1,902,680
      Pennsylvania
                           11                         1,207,759
                           12                         2,530,081
                                                      3,737,840
      Utah
                           13                         1,740,803
      Oregon
                           14                         1,921,441
      Tennessee
                           15                              267,261
                           16                              169,047
                                                           436,308

      Total                                                      1
                                                   $34,551,576

     1
         Funds To Be Put To Better Use.



                                                    Exhibit A - Page 1 of 1


USDA/OIG-A/27601-7-SF                                            Page 83
EXHIBIT B - SUMMARY OF THE STATUS OF
            INVESTIGATIONS IN PROCESS AS OF
            FEBRUARY 19, 1999

                                       Individuals
                                       Indicted or    Individuals
                                        Named in       Who Pled
                     Investigations     Criminal     Guilty or Were   Individuals
             State     in Process     Informations     Convicted      Sentenced

      Arizona              1               1               1              1
      California           8              19              13              13
      Colorado             1
      Florida              2
      Idaho                1               1               1              1
      Louisiana            2
      Michigan             1               2
      New Mexico           2               1               1              1
      New York             2               1               1              1
      Ohio                 2              11               7              7
      Pennsylvania         3               1               1
      Tennessee            3               3               1              1
      Utah                 1               4               1
      Washington           2                               1              1
        TOTALS            31              44              28              26




                                                                      Exhibit B - Page 1 of 1


USDA/OIG-A/27601-7-SF                                                               Page 84
EXHIBIT C - SUMMARY OF AUDITS AND
            INVESTIGATIONS

                     Summary of Audits and Investigations
                  Sponsor       Types of Program Deficiencies Identified                  Results
    Sponsor          met
    Reviews       Seriously                                Provider Bogus
                  Deficient Monitoring/ Administrative Payment Providers Sponsor Investigated
    State No.
                   criteria  Training         Costs            s     /Children Terminated for Fraud
     AL       1       1           1
     AR1      2                   1
     AZ       3       2           2             2                        1                        1
     CA       11      11         10             11             4         3           5            8
     CO        2       2                         1                       1                        1
     FL        2       2          1              2                                   1            2
      ID       1       1                         1                                   1            1
      IL       4       3          3
      IN       2
     LA        3       2          2              2                       2           1            2
     ME        1       1          1              1
      MI       1       1                         1                                   1            1
     MO        1                  1
     NC        1                  1
     NM2       3       1          1              1             1                                  2
     NY        2       1          1              1                                                2
     OH3       2       1          1                                      1           1            2
     OR        1       1          1              1                                   1
     PA4       3       2          1              2             1                     2            3
     TN        3       2                         2                       1           2            3
     UT        2       1          2              2                       1           1            1
     WA 5      2       1          1              1                                                 2
     WI        2       1          1
  TOTAL6 55           37         32             31             6        10          16            31
1. Includes sponsor employee.
2. Includes sponsor employee and day care home provider.
3. Includes one day care home provider.
4. Includes one day care home provider.
5. Includes one day care home provider.
6. Total includes 49 sponsors (includes 1 day care center), 2 employees, and 4 providers.




                                                                                Exhibit C - Page 1 of 1


USDA/OIG-A/27601-7-SF                                                                       Page 85
    EXHIBIT D - RESULTS OF PROVIDER VISITS
                                                                                                             Type of Concern Noted
                                                          Attempted                    Number                               Health/     Meal
                                                          Provider/     Review        Concerns    Record      Possible      Safety     Compo-
                              Sponsor                    Center Visits Completed        Noted     Keeping     Overclaim     Issues      ents
    Quad County Child Nutrition Program                      115            107          65           X           X             X
    Feeding Arizona Kids, Inc.                                61            51           46           X           X             X        X
    BJ Enterprises, Inc.                                      76            57           47           X           X             X        X
    Angela's Angels Preschool, Inc.                          158            125          75           X           X             X
    Pacific Asian American Family Care, Inc.                 108            86           49           X           X             X
    Ken-Kia Child Development, Inc.                           99            86           82           X           X             X
    Lunch, Inc.                                               77            75           12           X           X
    Southern Maine Christian Day Care Services               114            114          101          X           X             X
    Connections, Inc.                                        105            75           63           X           X             X
    New Jerusalem Church of God in Christ                    123            67           53           X           X             X        X
    Child Care Services, Inc.                                 84            72           51           X           X             X        X
    Children of the Future                                   205            144          134          X           X             X        X
    Children's Spectrum Child Care Services, Inc.            270            187          122          X           X             X        X
    A Perfect Balance, Inc.                                   43            40           24           X           X             X        X
    Human Development Center                                  88            88           53           X           X             X
    YWCA of Metropolitan Chicago                              56            56           52           X           X
    Sage Community Providers, Inc.                           125            93           77           X           X
    Child Nutrition Services, Inc.                           379            379          116          X           X
    Cape Fear Tutoring, Inc.                                 176            173          50           X           X
    Children's Best Interests, Inc.                          232            209          112          X           X             X        X
    Operation Kids, Inc.                                      46            46            0
    Community Business Improvement Association,              119            57           44           X           X                      X
    King County Family Child Care Association                 28            22            4           X                         X
    Community Relations - Social Development                  27            27           21           X           X
    Family Day Care Services, Inc.                           171            166          117          X           X             X        X
                                  2
    Aladdin Child Care Services                              N/A            N/A          N/A         N/A         N/A            N/A     N/A
    New Life For Children                                    203            203          93           X           X                      X
                                                                                  1
                              TOTAL                         3,288         2,805         1,663


1
 Four hundred and eighty-three visits were not completed largely because there was nothing to review: the home was no longer in the program, or
no one was on the premises during the stated food service hours.

2
Visits were not conducted at Aladdin because the sponsor had terminated operation prior to our joint audit and investigation.



                                                                                                                       Exhibit D - Page 1 of 1


USDA/OIG-A/27601-7-SF                                                                                                                 Page 86
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                   Exhibit E - Page 1 of 15


  USDA/OIG-A/27601-7-SF                         Page 87
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                   Exhibit E - Page 2 of 15


  USDA/OIG-A/27601-7-SF                         Page 88
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                   Exhibit E - Page 3 of 15


  USDA/OIG-A/27601-7-SF                         Page 89
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                   Exhibit E - Page 4 of 15


  USDA/OIG-A/27601-7-SF                         Page 90
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                   Exhibit E - Page 5 of 15


  USDA/OIG-A/27601-7-SF                         Page 91
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                   Exhibit E - Page 6 of 15


  USDA/OIG-A/27601-7-SF                         Page 92
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                   Exhibit E - Page 7 of 15


  USDA/OIG-A/27601-7-SF                         Page 93
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                   Exhibit E - Page 8 of 15


  USDA/OIG-A/27601-7-SF                         Page 94
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                   Exhibit E - Page 9 of 15


  USDA/OIG-A/27601-7-SF                         Page 95
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                  Exhibit E - Page 10 of 15


  USDA/OIG-A/27601-7-SF                         Page 96
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                  Exhibit E - Page 11 of 15


  USDA/OIG-A/27601-7-SF                         Page 97
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                  Exhibit E - Page 12 of 15


  USDA/OIG-A/27601-7-SF                         Page 98
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                  Exhibit E - Page 13 of 15


  USDA/OIG-A/27601-7-SF                         Page 99
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                  Exhibit E - Page 14 of 15


  USDA/OIG-A/27601-7-SF                       Page 100
EXHIBIT E - FOOD AND NUTRITION SERVICE'S
            WRITTEN RESPONSE TO THE DRAFT
            REPORT




                                  Exhibit E - Page 15 of 15


  USDA/OIG-A/27601-7-SF                       Page 101
